<html>
<title> - NATURE IN CRISIS: BIODIVERSITY LOSS AND ITS CAUSES</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]




 
                           NATURE IN CRISIS:
                    BIODIVERSITY LOSS AND ITS CAUSES

=======================================================================

                                HEARING

                               BEFORE THE

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              JUNE 4, 2019

                               __________

                           Serial No. 116-24

                               __________

 Printed for the use of the Committee on Science, Space, and Technology
 
 
 
 
 
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 




                            ______

              U.S. GOVERNMENT PUBLISHING OFFICE 
 36-504PDF            WASHINGTON : 2020



       Available via the World Wide Web: http://science.house.gov

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

             HON. EDDIE BERNICE JOHNSON, Texas, Chairwoman
ZOE LOFGREN, California              FRANK D. LUCAS, Oklahoma, 
DANIEL LIPINSKI, Illinois                Ranking Member
SUZANNE BONAMICI, Oregon             MO BROOKS, Alabama
AMI BERA, California,                BILL POSEY, Florida
    Vice Chair                       RANDY WEBER, Texas
CONOR LAMB, Pennsylvania             BRIAN BABIN, Texas
LIZZIE FLETCHER, Texas               ANDY BIGGS, Arizona
HALEY STEVENS, Michigan              ROGER MARSHALL, Kansas
KENDRA HORN, Oklahoma                RALPH NORMAN, South Carolina
MIKIE SHERRILL, New Jersey           MICHAEL CLOUD, Texas
BRAD SHERMAN, California             TROY BALDERSON, Ohio
STEVE COHEN, Tennessee               PETE OLSON, Texas
JERRY McNERNEY, California           ANTHONY GONZALEZ, Ohio
ED PERLMUTTER, Colorado              MICHAEL WALTZ, Florida
PAUL TONKO, New York                 JIM BAIRD, Indiana
BILL FOSTER, Illinois                JAIME HERRERA BEUTLER, Washington
DON BEYER, Virginia                  JENNIFFER GONZALEZ-COLON, Puerto 
CHARLIE CRIST, Florida                   Rico
SEAN CASTEN, Illinois                VACANCY
KATIE HILL, California
BEN McADAMS, Utah
JENNIFER WEXTON, Virginia

                         C  O  N  T  E  N  T  S

                              June 4, 2019

                                                                   Page
Hearing Charter..................................................     2

                           Opening Statements

Statement by Representative Eddie Bernice Johnson, Chairwoman, 
  Committee on Science, Space, and Technology, U.S. House of 
  Representatives................................................     7
    Written statement............................................     8

Statement by Representative Frank Lucas, Ranking Member, 
  Committee on Science, Space, and Technology, U.S. House of 
  Representatives................................................     9
    Written statement............................................    10

                               Witnesses:

Sir Robert Watson, Past Chair, Intergovernmental Science-Policy 
  Platform on Biodiversity and Ecosystem Services
    Oral Statement...............................................    12
    Written Statement............................................    14

Dr. Kate Brauman, Coordinating Lead Author, IPBES Global 
  Assessment; Lead Scientist, Global Water Assessment, University 
  of Minnesota, Institute of the Environment
    Oral Statement...............................................    32
    Written Statement............................................    34

Dr. James Porter, Josiah Meigs Distinguished Professor, Emeritus, 
  University of Georgia, and Scientific Advisor, Chasing Coral
    Oral Statement...............................................    42
    Written Statement............................................    44

Mr. Jeff Goodwin, Conservation Stewardship Lead and Agricultural 
  Consultant, Nobel Research Institute
    Oral Statement...............................................    57
    Written Statement............................................    59

Dr. Steven Monfort, Director of the Smithsonian National Zoo and 
  Conservation Biology Institute
    Oral Statement...............................................    65
    Written Statement............................................    67

Discussion.......................................................    77

             Appendix I: Answers to Post-Hearing Questions

Dr. James Porter, Josiah Meigs Distinguished Professor, Emeritus, 
  University of Georgia, and Scientific Advisor, Chasing Coral...   110

            Appendix II: Additional Material for the Record

Statements submitted by Representative Eddie Bernice Johnson, 
  Chairwoman, Committee on Science, Space, and Technology, U.S. 
  House of Representatives.......................................   114

Statement submitted by Representative Lizzie Fletcher, Committee 
  on Science, Space, and Technology, U.S. House of 
  Representatives................................................   125
Statement submitted by Representative Don Beyer, Committee on 
  Science, Space, and Technology, U.S. House of Representatives..   128


                           NATURE IN CRISIS:



                    BIODIVERSITY LOSS AND ITS CAUSES

                              ----------                              


                         TUESDAY, JUNE 4, 2019

                  House of Representatives,
               Committee on Science, Space, and Technology,
                                                   Washington, D.C.

    The Committee met, pursuant to notice, at 10:02 a.m., in 
room 2318 of the Rayburn House Office Building, Hon. Eddie 
Bernice Johnson [Chairwoman of the Committee] presiding.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Chairwoman Johnson. This hearing will come to order. 
Without objection, the Chair is authorized to declare a recess 
at any time. I want to say good morning, and welcome to today's 
Full Committee hearing, entitled, ``Nature in Crisis: 
Biodiversity Loss and its Causes''. I'd like to welcome our 
distinguished panel of witnesses, and thank all of you for 
joining us.
    Today we have the opportunity to discuss an issue that 
captivated the attention of the public and policymakers alike, 
namely the alarming loss in biodiversity that is occurring 
worldwide. As a matter of fact, I read a paper in France last 
week on this very subject. The Intergovernmental Science-Policy 
Platform on Biodiversity and Ecosystem Services, or the IPBES, 
recently published a summary for policymakers (SPM) for its 
first ever global assessment report. This intergovernmental 
body, which is not a part of the United Nations, set out to 
assess the state of biodiversity, its ecosystems, and the 
essential services they provide to society. The global 
assessment was prepared in advance of the upcoming UN 
Convention on Biological Diversity scheduled for 2020. I'd like 
to note that while we are primarily discussing the findings of 
the summary for policymakers today, the draft chapters of the 
full report were recently made publicly available. The final 
report chapters will be released later this year, and they will 
not differ from the findings in the summary for policymakers 
that we are discussing this morning.
    The findings of IPBES laid out are too stark to ignore. The 
global assessment lays out the direct drivers of biodiversity 
loss in the following order, from the greatest to least impact. 
Changes in land and sea use, direct exploitation of organisms, 
climate change, pollution, and invasive species. Though there 
are many underlying causes for these direct drivers of change, 
it is very clear that humans have had an outsized impact on our 
surrounding environment. We've already discussed the impacts 
that our change in climate is having on our oceans at our 
Environmental Subcommittee hearing earlier this year, but 
climate change as a driver of biodiversity loss also impacts 
non-marine ecosystems. I look forward to hearing from each of 
our witnesses about the real-world impacts of all of the 
drivers of this biodiversity loss.
    Much of the reporting on the global assessment is focused 
on the devastating findings that almost one million species 
could potentially go extinct in the next few decades. But we 
would be remiss if we did not discuss what else the report lays 
out, especially its recommendations for potential solutions and 
pathways for addressing biodiversity loss. I hope today's 
conversation with our witnesses will provide an opportunity to 
further illuminate potential solutions we can utilize to 
address the dangers highlighted in the global assessment.
    Earlier this year, I introduced the Energy and Water 
Research Integration Act, with my friend and colleague Ranking 
Member Lucas, to address issues related to water conservation 
and use in the process of the Department of Energy's research, 
development, and demonstration activities. Cross-cutting 
initiatives, like this bill, are clear examples of the role 
that Congress, and especially this Committee, can play in 
developing science-based solutions to our most pressing issues.
    June is World Oceans Month, and this week in particular is 
Capitol Hill's Oceans Week, or CHOW. I'm delighted that we have 
Dr. Porter from the University of Georgia joining us today to 
discuss the impacts of the drivers of biodiversity loss laid 
out in the IPBES report on coral reefs, and the numerous 
ecosystem services they provide. Later today the Committee will 
be screening Chasing Coral, a film for which Dr. Porter was a 
scientific expert. The screening is free and open to the 
public, and I encourage everyone to come back and watch it. 
After the screening, Dr. Porter will host a question and answer 
session with the audience. I want to let everyone know that 
this Thursday, June 6, the Committee will be hosting an Ocean 
Exploration Expo to showcase ocean exploration technologies. I 
again encourage members of the public, and any of my 
colleagues, to join this Expo on Thursday. More important, more 
information is available on our website. I would also like to 
welcome back Sir Robert Watson, who previously testified before 
our Committee over 20 years ago.
    I am really looking forward to today's discussion to not 
only better understand the findings of the IPBES Global 
Assessment Report, but also identify knowledge gaps, understand 
how best to implement the transformative changes recommended, 
and determine our path forward with science-based solutions. 
Thank you.
    [The prepared statement of Chairwoman Johnson follows:]

    Good morning. I would like to welcome our distinguished 
panel of witnesses and thank them for joining us. Today we have 
the opportunity to discuss an issue that has captivated the 
attention of the public and policymakers alike, namely the 
alarming loss in biodiversity that is occurring world wide.
    The Intergovernmental Science-Policy Platform on 
Biodiversity and Ecosystem Services, or IPBES, recently 
published a summary for policymakers for its first ever Global 
Assessment Report. This intergovernmental body, which is not a 
part of the United Nations, set out to assess ``the state of 
biodiversity, its ecosystems, and the essential services they 
provide to society.'' This Global Assessment was prepared in 
advance of the upcoming UN Convention on Biological Diversity 
scheduled for 2020.
    I would like to note that while we are primarily discussing 
the findings of the summary for policymakers today, the draft 
chapters of the full report were recently made publicly 
available. The final report chapters will be released later 
this year, and they will not differ from the findings in the 
summary for policymakers we are discussing this morning.
    The findings the IPBES laid out are too stark to ignore. 
The Global Assessment lays out five direct drivers of 
biodiversity loss in the following order from greatest to least 
impact (1) Changes in land and sea use (2) direct exploitation 
of organisms (3) climate change (4) pollution and (5) invasive 
species. Though there are many underlying causes for these 
direct drivers of change, it is very clear that humans have had 
an outsized impact on our surrounding environment.
    We have already discussed the impacts that a changing 
climate is having on our oceans at an Environment Subcommittee 
hearing earlier this year, but climate change as a driver of 
biodiversity loss also impacts non-marine ecosystems. I look 
forward to hearing from each of our witnesses about the real 
world impacts of all of the drivers of biodiversity loss.
    Much of the reporting on the Global Assessment has focused 
on the devastating finding that almost one million species 
could potentially go extinct in the next few decades. But, we 
would be remiss if we did not discuss what else this report 
lays out, especially its recommendations for potential 
solutions and pathways to addressing biodiversity loss. I hope 
today's conversation with our witnesses will provide an 
opportunity to further illuminate potential solutions we can 
utilize to address the dangers highlighted in the Global 
Assessment.
    Earlier this year I introduced the Energy-water nexus Act 
with my friend and colleague, Ranking Member Frank Lucas, to 
address issues related to water conservation and use in the 
process of the Department of Energy's research, development, 
and demonstration activities. Cross-cutting initiatives, like 
this bill, are clear examples of the role that Congress, and 
especially this Committee, can play in developing science-based 
solutions to our most pressing issues.
    June is world oceans month, and this week in particular is 
Capitol Hill Oceans Week, or CHOW. I am delighted that we have 
Dr. Porter from the University of Georgia joining us today to 
discuss the impacts of the drivers of biodiversity loss laid 
out in the IPBES report on coral reefs and the numerous 
ecosystems services they provide.
    Later today the Committee will be screening Chasing Coral, 
a film for which Dr. Porter was a scientific expert. This 
screening is free and open to the public and I encourage 
everyone to come back and watch the film. After the screening, 
Dr. Porter will host a question and answer session with the 
audience. I also want to let everyone know that this Thursday, 
June 6, the Committee will be hosting an Ocean Exploration Expo 
to showcase ocean exploration technologies. I again encourage 
members of the public, and any of my colleagues, to join this 
expo on Thursday. More information is available on our website. 
I would also like to welcome back Sir Robert Watson, who 
previously testified before our Committee over 20 years ago.
    I am really looking forward to today's discussion to not 
only better understand the findings in the IPBES Global 
Assessment report, but also identify to knowledge gaps, 
understand how best to implement the transformative changes 
recommended, and determine our path forward with science-based 
solutions.
    Thank you.

    Chairwoman Johnson. I now ask Mr. Lucas for his statement.
    Mr. Lucas. Madam Chair, thank you, and before starting my 
statement, I'd like to take a second to recognize one of our 
senior policy folks, Ben Traynham, who's sitting up here with 
us. This is his last hearing before he leaves D.C. and returns 
to Richmond, Virginia. Ben's moving home to practice law, to 
grow his family, with their second daughter due this fall. I 
want to thank Ben for his hard work. We'll miss that signature 
bowtie, even if it is kind of un-Western Oklahomish, and we 
wish you great success with your coming steps. So, thank you, 
Madam Chair, for indulging me on that courtesy.
    Now, Madam Chair, thank you for holding this hearing, and 
providing a platform to hold constructive dialog on this issue. 
I'm going to read it one time, and here ever after I'm going to 
refer to it as the report, the Intergovernmental Science-Policy 
Platform on Biodiversity and Ecosystem Services' Global 
Assessment Report on Diversity in Ecosystems is a 1,700-page 
report that was just released yesterday morning. I'll be the 
first to admit to you that I have not read the complete report, 
and I admire any of my colleagues who have found time to do so. 
The purpose of this hearing is to examine the report's summary 
for policymakers. And while I welcome today's discussion, I'd 
be remiss if I didn't say maybe waiting a week or so, a little 
time to read it in full, and understanding of the process, 
would've been useful, but those conclusions will serve us 
nonetheless.
    With what is being said, I look forward to a productive 
discussion on how we can use innovation to combat the most 
pressing changes in global biodiversity. Biodiversity, or the 
variability of species in ecosystems, plays a significant role 
in all aspects of human wellbeing. It's particularly important 
to agricultural producers, who lead a system that feeds and 
clothes billions of people every day. The report ranks land and 
sea use at the top of their five biggest drivers of change in 
nature, and concludes that agricultural expansion is the most 
widespread form of land use change. This expansion of 
agricultural land is a direct result of the need to feed the 
growing population.
    The global population is on track to reach nearly 10 
billion people by 2050, and the UN Food and Agricultural 
Association estimates that global food production will need to 
double by that time. Now, that's why we must support innovation 
and research that will help make food production more efficient 
and environmentally beneficial. Increasing production, while 
eliminating waste of all kinds, including land waste, is a goal 
of any operation. The best way to accomplish this in 
agriculture is utilizing modern science and conservation 
principles, coupled with proven management practices.
    The United States has been the model of conservation 
through voluntary coordination and innovation, and we must 
continue to carry that torch. Following the immense soil 
erosion and drought of the Dust Bowl in the 1930s, Federal, 
State, and local governments partnered with producers to solve 
the disaster. President Franklin D. Roosevelt's administration 
initiated programs to conserve soil and restore the ecological 
balance of the Nation, with producers leading the way. These 
U.S. programs and institutions, that incentivize conservation, 
have been incredibly successful, and are still in effect today.
    We've also benefited from innovations like those of Nobel 
Peace Prize recipient Dr. Norman Borlaug, who developed 
varieties of semi-dwarf, high-yield, disease-resistant wheat. 
This variety's introduction in India and Pakistan during the 
population boom of the 1960s is credited with starting the 
Green Revolution, and saving up to one billion people from 
starvation. There are even more exciting innovations on the 
horizon. Genetic engineering, gene editing, have the potential 
to produce plant varieties that require less land, less water, 
less fertilizer, while increasing biodiversity. This next 
generation of crop genetics are closer than we think, and 
current investments in research will pay unmeasurable dividends 
in the future.
    One of our witnesses today, Dr. Jeff Goodwin, will discuss 
efforts at the Nobel Research Institution to increase soil 
health and productivity through improved land management 
techniques. Mr. Goodwin will speak to voluntary agricultural 
conservation practices led by producers that should serve as a 
model for different industries. We've seen incredible success 
from these industry-led efforts without resorting to burdensome 
regulations.
    In closing, I'd like to remind my colleagues of this 
Committee's jurisdiction. This topic walks a fine line with the 
Natural Resources Committee, so I encourage my colleagues focus 
on research and innovation that can be used as solutions, not 
the doom and gloom of predicting what might happen in the 
future. Too often we are bogged down by the alarming negative 
headlines that stem from these reports. What I see is another 
opportunity to revolutionize. I see another opportunity for the 
United States to show yet again we're the best in the world at 
solving the daunting and complex problems we all face. I look 
forward to hearing more on technological innovations and 
environmental stewardship that looks to improve our critical 
biodiversity, while promoting economic growth. Thank you, Madam 
Chair, and I yield back the balance of my time.
    [The prepared statement of Mr. Lucas follows:]

    Thank you, Chairwoman Johnson, for holding this hearing and 
providing a platform to hold constructive dialogue on this 
issue.
    The IPBES Global Assessment Report on Biodiversity and 
Ecosystem Services is a 1,700-page report that was just 
released yesterday morning. I will be the first to admit I have 
not read the complete report and I admire any of my colleagues 
who found the time to do so. The purpose of this hearing is to 
examine the report's Summary for Policymakers.
    While I welcome today's discussion, I would be remiss if I 
didn't say that waiting a week or two for time to read the full 
report and understand the underlying process used to reach 
conclusions would serve us better.
    With that being said, I look forward to a productive 
discussion on how we can use innovation to combat the most 
pressing changes in global biodiversity.
    Biodiversity, or the variability of species and ecosystems, 
plays a significant role in all aspects of human well-being. 
It's particularly important to agricultural producers who lead 
a system that feeds and clothes billions of people every day.
    The IPBES report ranks land and sea use at the top of their 
five biggest drivers of change in nature and concludes that 
agricultural expansion is the most widespread form of land use 
change. This expansion of agricultural lands is a direct result 
of the need to feed the growing population.
    The global population is on track to reach nearly 10 
billion people by 2050, and the UN Food and Agriculture 
Association estimates that global food production will need to 
double by that time. That is why we must support innovation and 
research that will make food production more efficient and 
environmentally beneficial.
    Increasing production while eliminating waste of all kinds, 
including land waste, is the goal of any operation. The best 
way to accomplish this in agriculture is utilizing modern 
science and conservation principles coupled with proven 
management practices.
    The United States has been the model of conservation 
through voluntary coordination and innovation, and we must 
continue to carry that torch. Following the immense soil 
erosion and drought of the Dust Bowl, federal, state, and local 
governments partnered with producers to solve the disaster.
    President Franklin D. Roosevelt's administration initiated 
programs to conserve soil and restore the ecological balance of 
the nation. With producers leading the way, these U.S. programs 
and institutions that incentivize conservation have been 
incredibly successful and are still in effect today.
    We have also benefited from innovations like those of Nobel 
Peace Prize recipient Dr. Norman Borlaug, who developed 
varieties of semi-dwarf, high-yield, disease-resistant wheat. 
This variety's introduction to India and Pakistan during the 
population boom of the 1960s is credited with starting the 
Green Revolution and saving up to 1 billion people from 
starvation.
    There are even more exciting innovations on the horizon. 
Genetic engineering and gene editing have the potential to 
produce plant varieties that require less land, water, and 
fertilizer all while increasing biodiversity. This next 
generation of crop genetics are closer than we think and 
current investments in research will pay unmeasurable dividends 
in the future.
    One of our witnesses today, Mr. Jeff Goodwin, will discuss 
efforts at the Nobel Research Institute to increase soil health 
and productivity through improved land management techniques.
    Mr. Goodwin will speak to voluntary agricultural 
conservation practices led by producers that should serve as a 
model for different industries. We've seen incredible success 
from these industry-led efforts without resorting to burdensome 
regulations.
    In closing, I would like to remind my colleagues of this 
Committee's jurisdiction. This topic walks a fine line with the 
Natural Resources Committee, so I encourage my fellow Members 
to focus on research and innovation that can be used as 
solutions, not the doom and gloom of predicting what might 
happen in the future.
    Too often we are bogged down by the alarmingly negative 
headlines that stem from these reports. What I see is another 
opportunity to revolutionize. I see another opportunity for the 
United States to show yet again that we are the best in the 
world at solving the daunting and complex problems we all face.
    I look forward to hearing more on technology innovations 
and environmental stewardship that looks to improve our crucial 
biodiversity while promoting economic growth. Thank you Madam 
Chair and I yield the balance of my time.

    Chairwoman Johnson. Thank you very much, Mr. Lucas. If 
there are Members who wish to submit additional opening 
statements, your statements will be added to the record at this 
point. At this time I'd like to introduce our witnesses.
    Sir Robert Watson served as the IPBES Chair from 2015 to 
2019. He is a leader in the field of environmental science, and 
has spent much of his distinguished career focusing on the 
impacts human activity has had on Earth. Currently, Dr. Watson 
is Professor of Environmental Sciences at the University of 
East Anglia in Norwich, England. He also serves as Director of 
Strategic Development of the Tyndall Center for Climate Change 
Research at the University.
    Dr. Kate Brauman is a coordinating lead author for the 2019 
IPBES Global Assessment. Dr. Brauman also served as a lead 
scientist for the Global Water Initiative at the University of 
Minnesota, Institute on the Environment.
    Dr. James Porter is an Emeritus Professor at the University 
of Georgia, Odum School of Ecology. Dr. Porter's research 
focuses on coral reef ecology and conservation, as well as 
marine life ecosystems.
    Mr. Jeff Goodwin is a conversation stewardship leader and a 
pasture and range consultant at the Nobel Research Institute 
based in Ardmore, Oklahoma. Prior to his current position, Mr. 
Goodwin worked for the U.S. Department of Agriculture, Natural 
Resources Conservation Service, for nearly 14 years.
    Last, we have Dr. Steven Monfort. Dr. Monfort is Director 
of the Smithsonian National Zoo and Conservation Biology 
Institute. He holds a Ph.D. in Environmental Science and Public 
Policy, as well as a doctorate degree in veterinary medicine.
    Our witnesses should know that you each have 5 minutes for 
your spoken testimony. Your written testimony will be included 
in the record for the hearing. When all of you have completed 
your spoken testimony, we will begin with questions. Each 
Member will have 5 minutes to question the panel.
    We will start with Dr. Watson.

               TESTIMONY OF SIR DR. ROBERT WATSON,

          PAST CHAIR, INTERGOVERNMENTAL SCIENCE-POLICY

         PLATFORM ON BIODIVERSITY AND ECOSYSTEM SERVICES

    Dr. Watson. Thank you, Madam Chair, and Members of the 
Committee. I really appreciate the opportunity to provide this 
testimony, which is indeed based on the IPBES Global Assessment 
of Biodiversity and Ecosystem Services. As Madam Chair said, 
IPBES is an intergovernmental body, but it is independent of 
the United Nations. The assessment was prepared by 450 
scientists. We used 15,000 sources of information, and received 
15,000 comments during two rounds of expert and government peer 
review. The chapters and the SPM are now all available on the 
IPBES website.
    Biodiversity, which is critical to human wellbeing, 
provides food, as indeed has been mentioned already, fiber, 
water, energy, and medicines. It regulates our climate, our 
air, our water pollution, storm surges, floods, and 
pollination, and has significant cultural and social value. 
Biodiversity is currently being lost at a rate unprecedented in 
human history, primarily driven by changes in land and sea use, 
and direct exploitation of organisms, and, to a lesser extent, 
to date, by climate change, pollution, and invasive alien 
species. These all result from increases in the number of 
humans and per capita consumption, trade, technological 
innovations, and governance systems, local to global. These 
losses in biodiversity are undermining human wellbeing, 
especially the regulating and cultural services.
    While climate change has not been the dominant driver in 
the loss of biodiversity to date in most parts of the world, it 
is projected to become as important, or potentially more 
important, than other drivers of change in the coming decades. 
Climate change is already adversely affecting genetic 
variability, species richness, populations' composition and 
distributions, and the boundaries, structure, and functioning 
of ecosystems. These changes are evident and accelerating, in 
marine, terrestrial, and freshwater systems. Almost half of the 
threatened terrestrial mammals, and one-quarter of threatened 
birds, may already have been negatively affected by climate 
change. In turn, biodiversity can adversely affect the Earth's 
climate. For example, deforestation increases the atmospheric 
abundance of carbon dioxide, a key greenhouse gas, therefore 
it's essential that we look at the issues of biodiversity and 
climate change together.
    In addition to transforming the way we produce and use 
energy, there are many nature-based approaches that can be used 
to adapt to, or mitigate, human-induced climate change. Large-
scale reforestation, ecosystem restoration. However, it is 
important to recognize that some of the approaches that have 
been suggested to limit human-induced climate change, such as 
large-scale afforestation, and large-scale bioenergy, will 
adversely affect biodiversity, and food and water security, if 
natural vegetation, grasslands and forests, are replaced by 
monoculture bioenergy crops. So we have to think through very 
carefully how we use afforestation and bioenergy.
    Loss of biodiversity, just like human-induced climate, is 
not only an environmental issue, but it's an economic, 
development, social, security, moral, and ethical issue. The 
loss of biodiversity is projected to continue or worsen in many 
future scenarios. Business as usual is not an option if the 
world wants to conserve, and sustainably use biodiversity, and 
meet sustainable and societal goals, such as food and water 
security. Scenarios show that the impact of climate change is 
projected to intensify with the degree of warming. For 
instance, in a climate change risk assessment, 5 percent of 
species are at risk at 2 degree warming, rising to 16 percent 
with a 4.3 degree warming.
    Current and future projected trends in biodiversity will 
undermine many of the internationally agreed Aichi biodiversity 
targets. They will undermine the sustainable development goals, 
all 17 of them, and it will undermine the Paris agreement on 
climate change. And, in particular, it will threaten poverty, 
hunger, human health, water, cities, and life on land.
    With that, Mr. Chairman, I'd like to close my remarks. 
Madam Chair, apologies.
    [The prepared statement of Dr. Watson follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
        
    Chairwoman Johnson. Thank you very much. Now we'll have Dr. 
Brauman.

                 TESTIMONY OF DR. KATE BRAUMAN,

       COORDINATING LEAD AUTHOR, IPBES GLOBAL ASSESSMENT,

            LEAD SCIENTIST, GLOBAL WATER INITIATIVE,

     UNIVERSITY OF MINNESOTA, INSTITUTE ON THE ENVIRONMENT

    Dr. Brauman. Madam Chair, Ranking Member Lucas, Members of 
the Committee, thank you for the opportunity to testify today. 
This testimony is based on the global assessment of the 
Intergovernmental Science-Policy Platform on Biodiversity and 
Ecosystem Services. As a coordinating lead author, I worked 
with a team of experts synthesizing existing published research 
on nature, and its very broad range of contributions to people. 
It is a big report. In short, people depend on nature. The 
deterioration of nature, species extinction, threatens the 
benefits that nature provides, from our basic food supply, to 
our very sense of selves. And most of these benefits, these 
ecosystem services, are not fully replaceable. Some of them are 
irreplaceable.
    What do I mean by ecosystem services? Many of the material 
goods on which we depend, including food, bioenergy, medicines, 
other materials, come directly from nature. In addition, nature 
underlies the production of those tangible goods, and, indeed, 
our very life support systems on Earth. Nature plays a critical 
role in cycling water, affecting climate, and protecting us 
from natural hazards.
    Nature offers more than this, however. Also critical to 
human wellbeing are the intangible benefits that it provides. 
Nature inspires science, technology, and art. It affects our 
mental health, and it provides a sense of place. Here in 
Washington, each spring the cherry blossoms bring joy and a 
sense of international connection, not to mention tourist 
dollars. In Minnesota, where I've made my home, our 10,000 
lakes, and our pride in the boundary waters, are part of our 
collective identity. Yet the Global Assessment establishes that 
nature is in decline, so most of those benefits are declining 
as well.
    There are five main causes: Changes in land and sea use, 
overutilization of plants and animals, climate change, 
pollution, and invasive species. Land use change has been the 
most important to date, largely because of its scale. Over the 
past 50 years, raw timber harvest has increased by 45 percent, 
and the value of agricultural crop production has increased 
nearly threefold. Let there be no mistake, our transformation 
of nature has been critical for both human nutrition and 
livelihoods, but we also must be clear-eyed about the impact. 
We have transformed the globe.
    Today, over one-third of the terrestrial land surface is 
used for cropping or livestock. Agriculture, alongside growing 
urban areas, and expanding infrastructure, has transformed 
forests, wetlands, and grasslands around the world. This has 
led to declines in many ecosystem services, particularly those 
that underpin the environmental processes, and those that 
provide intangible benefits. For example, when we drain farm 
fields, soils and plants can no longer hold water, and this 
could exacerbate flooding downstream. Some of this we've seen 
in the Midwest over the past several months. Excess fertilizer 
causes toxic algal blooms, like the one that shut down Toledo's 
water system in 2014, and causes dead zones in the Gulf of 
Mexico.
    These impacts are widespread and pervasive. In the Global 
Assessment, we evaluated 18 categories of nature's benefits. 
Globally, we find increases only in production of material 
goods, goods whose value we already recognize. The majority of 
nature's benefits are in decline, including processes affecting 
air, water, and climate, as well as non-tangible benefits, such 
as the diversity of life from which to learn. Overall, the 
expansion of food, feed, fiber, bioenergy, has occurred at the 
cost of many of these other benefits, and those burdens and 
benefits are often distributed unequally across space and time, 
and among different segments of society.
    Agriculture is an example not just as a driver of 
environmental change, it's also threatened by these, 
particularly in the face of a changing planet. Healthy soils 
are the basis of everything we grow, yet land degradation has 
reduced productivity on 23 percent of global terrestrial area. 
Bees are critically important to more than 75 percent of global 
food crop types, including fruit, vegetables, and many cash 
crops, yet they are also in decline, putting at risk as much as 
577 billion in annual global crop output. This signals a threat 
to our continued ability to grow food, and maintain productive 
agricultural systems.
    In addition, extinction threatens both wild and 
domesticated food plants and animals, posing a serious risk to 
global food security. Wild food relatives represent critical 
reservoirs of genes and traits that may provide resilience 
against future climate change, pests, and pathogens. Yet by 
2016, domestic breeds of mammals used for food and agriculture, 
close to 10 percent, are already extinct. Without soils, plants 
can be grown hydroponically. Coastal flooding can be managed by 
dykes and seawalls, but substitutes are frequently expensive, 
and they incur high future costs. They cannot be the entirety 
of our Plan B. Looking forward, we can promote solutions by 
working with nature, and those solutions exist. Continued 
research is necessary, but there is much that we can do today. 
Thank you.
    [The prepared statement of Dr. Brauman follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
   
    
    Chairwoman Johnson. Dr. Porter.

                 TESTIMONY OF DR. JAMES PORTER,

          JOSIAH MEIGS PROFESSOR OF ECOLOGY, EMERITUS,

         ODUM SCHOOL OF ECOLOGY, UNIVERSITY OF GEORGIA

    Dr. Porter. And if we could have the first slide, please? 
Thank you very much, Madam--Chairwoman Johnson, Ranking Member 
Lucas, and Members of the Committee for inviting me here. I'll 
make my introductory comments with a clip of film from Chasing 
Coral playing in the background.
    Coral reefs cover only 1 percent of the Earth's surface, 
and yet within that 1 percent are 25 percent of all marine 
plant and animal species. Coral reef generate $9.9 trillion per 
year in economic benefit for 500 million people that depend on 
them exclusively for their source of income, and for their 
protein. In addition to that, coral reefs generate $24 billion 
a year to Florida and Hawaii alone. And across coral reefs have 
generated amazing new drugs from the sea. A new drug from last 
year that reduces the risk of heart attack in elderly 
Americans, another drug that cures prostate cancer, and a third 
drug that is more powerful in killing the HIV virus than AZT. 
It is an amazing cornucopia.
    All of the ills that have been mentioned for other 
ecosystems apply to coral reefs, including exploitation, and 
also pollution of plastics, and invasive species, such as the 
lionfish, which is from the Indo-Pacific, is now in the 
Caribbean. But the key driver of diversity loss in the oceans 
is, in fact, climate change. The reason for this is that corals 
are only 2 degrees away from the high temperatures that kill 
them. The irony is that, of the warming heat that has been 
generated in the last 50 years, only 7 percent of that is in 
the air. The remaining 93 percent of the heat is in the oceans. 
The oceans have absorbed this heat. We know this because we 
have indeed measured it. If the oceans had not been the Earth's 
punching bag to take this heat, then the average temperature 
outside this room today would be 122 degrees Fahrenheit. That 
is the physics of what we are dealing with.
    I'm going to show you two examples from coral reefs. First, 
from Jamaica, this is a picture from 1976. This is what this 
reef looks like today. You have a right to ask, is that from 
the same place? I direct your attention to the boulder coral, 
with the distinctive eye-spot, the lower right hand corner. 
There it was before, here it is again. We are in the same 
place. Now let us look for--closer to home, the Florida Keys. 
In 1994, a coral reef off Key West. There it was before, and in 
2004, the corals are going, going, gone. It does not matter 
what place in the Florida Keys you go to, you get the same 
result.
    Seventy-five percent of all reefs in the Florida Keys have 
fewer species now than they did before. In the upper right hand 
coral--some coral species have gone extinct, and the branching 
and elk horn corals that you see in the lower right, once the 
commonest corals in the Caribbean, are now on the critically 
endangered species list. This Committee deals with species, 
but, on reefs, it's not just at the species level. The genus, 
the family, the order, the class, all are at risk. A recent 
paper in Science shows that 85 percent of the time that these 
higher taxa appeared on this planet, they did so on coral 
reefs, making them evolution's cradle, and also their museum. 
The cradle to evolve new forms, the museum to retain them.
    An example is from the class sponges. They have the miracle 
that they can secrete their skeleton either out of calcium, 
like you and me, or out of silicon glass. The last time a class 
of organisms on this planet went extinct was 500 million years 
ago, and within the next 50 years we can eliminate this class. 
We are not only trimming the leaves, the species, we are 
trimming the branches, the trunk, and the roots of the life on 
this planet.
    Climate change is the cause, and we are worried that in 
2040 we are going to see a loss of coral reefs worldwide as 
they bleach, and turn white, and die. But, if we were able to 
reduce the amount of greenhouse gases through all the kinds of 
technology's imaginable, we could take that 2040 away, and buy 
coral reefs at least 100 years in which they might be able to 
evolve thermal tolerance.
    Seventy-five percent of the living coral in Florida has 
died in the last 10 years. Sixty-six percent of all corals on 
the Barrier Reef died in the last 2 years from climate change. 
This Committee is about life on Earth. We can save the 
biodiversity of the planet, but we must begin now. Thank you 
for coming.
    [The prepared statement of Dr. Porter follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    Chairwoman Johnson. Thank you very much. Mr. Goodwin?

                   TESTIMONY OF JEFF GOODWIN,

               CONSERVATION STEWARDSHIP LEAD AND

       AGRICULTURAL CONSULTANT, NOBLE RESEARCH INSTITUTE

    Mr. Goodwin. Chairwoman Johnson, Ranking Member Lewis, 
Members of the Committee, thank you for this opportunity to 
provide testimony on behalf of the Nobel Research Institute. 
The recently published Global Assessment of the 
Intergovernmental Science-Policy Platform on Biodiversity and 
Ecosystem Services discusses in depth the estimated projections 
and global biodiversity loss and the perceived negative impacts 
imposed by the agricultural industry. To the contrary, for more 
than a decade a movement has been taking place in the ag 
industry that is returning biodiversity to the land. A 
significant number of farmers and ranchers, producers, across 
the country, and around the world, are part of an agricultural 
revolution, a regenerative revolution, focused specifically on 
biological diversity, and building biologically active soils.
    This movement, however, was not born out of legislation, or 
regulatory requirement. It was born out of the recognition by 
innovative producers, who understood the adoption of 
ecologically and economically sustainable principles would 
enable them to remain on the land, producing the food and fiber 
needed for an ever-expanding population. Sixty years ago the 
agriculture industry operated on cheap fuel and fertilizer. Our 
industry, and our research, during that time focused on the 
chemical and physical characteristics of soil, with little to 
no consideration of the biological interactions. In recent 
years, prices for food and fertilizer have increased to the 
point that--become unsustainable for many operations. Many 
producers have had to make a choice, continue what they've 
always done, or work with nature to find a new solution.
    Born out of equal parts necessity and frustration, 
producers began to experiment with farming techniques that 
limited the use of inorganic fertilizer. They began to see that 
limiting or eliminating tillage reduced their fuel bill, and 
using the ageless practice of cover crops to keep their fields 
covered provided numerous benefits to the soil, like preventing 
erosion, like increasing the soil's water holding capacity, 
and, yes, increasing biodiversity. In essence, they built a 
foundation of principles that producers follow today to manage 
healthy soils.
    These soil health principles were set forth to achieve 
specific goals inherent to all soils. They mimic highly 
diverse, heterogeneous native rangelands by harnessing the 
power of biologic interactions between plants and soil 
microbes. These principles build soil aggregation, which 
further build soil structure, which increases water 
infiltration, and ultimately increases the soil's resilience. 
These principles provide innovative producers a path forward, 
and substantiate that the conventional farming practices of the 
last 60 years are not the only way. These principles were 
developed by producers, for producers. Principles like armoring 
the soil, keeping the soil covered. Soil cannot be built if 
it's moving. Optimizing or minimizing disturbances, increasing 
species diversity, keeping living roots in the ground as long 
as possible, and increase, and properly integrating livestock.
    In 1949 Aldo Leopold, considered by many to be the father 
of conservation theory and wildlife management, taught that 
land stewardship was not only rooted in conservation, but also 
involved an ethic of stewardship. He wrote that the individual 
is a member of a community of interdependent parts. The land 
ethic simply enlarges the boundaries of the community to 
include soil, water, plants, animals, or, collectively, the 
land. Simply put, once we understand that humans are not 
separate from, but are part of, and depend on, the natural 
community, we develop an ethic to care for the community as a 
whole.
    For years those who oversee the use and protection of our 
soil, the producers, have been disparaged, and in many cases 
demonized, for the practices in which they engage. However, the 
reality is that those entrusted with the mantle of land steward 
embrace the same ethic taught by Mr. Leopold. Producers today 
are implementing principles that return biodiversity to the 
land. This stewardship cannot happen without those stewards on 
the land. Thank you.
    [The prepared statement of Mr. Goodwin follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    Chairwoman Johnson. Dr. Monfort.

                TESTIMONY OF DR. STEVEN MONFORT,

          DIRECTOR OF THE SMITHSONIAN NATIONAL ZOO AND

                 CONSERVATION BIOLOGY INSTITUTE

    Dr. Monfort. Thank you, Chairwoman Johnson, Ranking Member 
Lucas, and distinguished Members of the Committee. My name is 
Steve Monfort, and I'm the Director of the Smithsonian's 
National Zoo and Conservation Biology Institute. In addition to 
representing my zoo colleagues, I'm honored today to represent 
my Smithsonian partners from--Environmental Research Center, 
our Tropical Research Institute, and the National Museum of 
Natural History, and others united under Smithsonian's 
umbrella, called the Conservation Commons, which is an 
institution-wide effort designed to foster collaboration in 
tackling complex conservation problems.
    At the National Zoo you probably know that we care for and 
conserve some of the rarest species on Earth, but what may be 
less known to you is that the Smithsonian has been studying 
biodiversity for 170 years plus. Today, hundreds of Smithsonian 
scientists and scholars work across the spectrum of 
biodiversity and conservation science, from genomes to 
individuals and populations, to forests, watersheds, and 
fisheries, to understanding the impacts of infrastructure 
development, pandemic diseases, and human/animal conflict, work 
that is focused on understanding and sustaining a biodiverse 
planet, which we've been hearing is the very fabric of what we 
define as nature, and all of its vital contributions to people, 
and all life on Earth.
    As evidenced by our incredible new fossil hall, which I'm 
sure you'll all have a chance to see soon, our collections 
represent the best planetary record that humanity possess. They 
document long-term baselines, trends, and changes about the 
planet, biodiversity, and even human cultures. And what we've 
learned is this, it took 200,000 years for the human population 
to reach one billion people, but only 200 to reach nearly eight 
billion, and this has resulted in profound planetary change.
    The IPBES report essentially confirms what we have long 
known--humans have made things very tough for nature. And yet, 
as you've also heard, we're inextricably linked to, and 
connected, and dependent upon biodiversity, upon nature. 
Because, quite literally, and very simply, every breath that 
you take, every drop of water that you drink, every bite of 
food that you consume, is in one way dependent upon 
biodiversity and functioning ecosystems.
    Over the next decade we know that trillions of dollars are 
going to be invested in things like infrastructure development, 
and land conversion, to really--to support the livelihoods of a 
growing human population. But without better planning, proper 
planning, this development will continue to be a major driver 
of animal mortalities, of habitat fragmentation, species 
invasions, and the spread of pathogens that are responsible for 
global pandemic disease threats.
    The ongoing and real threats to biodiversity are clearly 
daunting, and yet, if we just bombard the public with messages 
of gloom and doom, absent any focus on solutions, we risk 
fostering a sense of--that nothing anyone does is going to make 
a difference. So, to counter this, in 2017 the Smithsonian 
launched Earth Optimism, which is a worldwide forum for sharing 
and curating stories of conservation success. Our next summit 
aims to reach a billion people around the world on the 50th 
anniversary of Earth Day, which will be in April 2020, and, of 
course, you're all invited to join us.
    In my own experience, increasing collaboration increases 
the chance of finding solutions, and I'd like to share two 
examples that I believe demonstrate that. The Scimitar Horned 
Oryx is a large, magnificent, desert-adapted antelope that once 
roamed widely across the entire Sahelian grasslands of North 
Africa, from Senegal to North Africa, like American bison, 
widely distributed. The species was declared extinct in the 
wild in the 1980s as a result of war and overhunting. And, 
fortunately, though, large populations of the species were 
maintained in human care, both in zoos and private collections 
worldwide, including at the Smithsonian.
    In 2010, the Smithsonian helped to convene a global network 
of stakeholders that included the governments of Abu Dhabi, 
which managed large populations of oryx in their own herds, and 
the government of Chad, which sought to restore the species to 
their historic rangelands. And so it was through this diverse 
partnership that, in 2016, I had the amazing opportunity to 
personally witness the first group of oryx to touch Chadian 
soil in more than 30 years. Reintroducing oryx back to Chad is 
really just the first step in restoring ecological balance in 
an entire Sahelian Grasslands ecosystem, upon which people 
depend for their livelihoods.
    Another great example comes from our Tropical Research 
Institute in Panama. As you know, the Panama Canal is a massive 
lifeline of global commerce, but large ships were routinely 
colliding with humpback whales, which was, of course, 
catastrophic for the animals, but also had the potential for 
disrupting global trade. Our scientists used GPS tracking 
devices to monitor the movements of these whales, and, through 
collaboration with the Panama Canal Authority, these data were 
used to re-establish new shipping lanes, which resulted in a 93 
percent reduction in ship/whale collisions.
    So win/win solutions for people and nature will require us 
to adopt new standards of practice that recognize that 
integrating conservation and science across multiple sectors 
into development practice is good for our economies, it's good 
for our families, and good for every global citizen, because we 
all have a stake, and will benefit from sustaining a biodiverse 
planet. Nature must have a place at the decisionmaking table, 
not as an interloper, but as an existential partner, if it is 
to fulfill its role in providing its incredible benefits to 
current and future human societies. Thank you.
    [The prepared statement of Dr. Monfort follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    Chairwoman Johnson. Thank you very much. Let me thank all 
of our witness. And, before we begin our questioning, I'd like 
to present five documents for the record, letters from the 
Center for Biological Diversity, and the International Fund for 
Animal Welfare, and statements from Dr. Jacob Malcolm at 
Defenders of Wildlife, Dr. Bruce Stein at the National Wildlife 
Federation, and the National Resources Defense Council. All 
five documents highlight the shocking and frightening findings 
of the IPBES report. Further, the letters and statements call 
for aggressive science-based action to address this crisis. And 
so, without objection, I'm placing these five documents in the 
record. At this point we will begin our first round of 
questions, and I recognize myself for 5 minutes.
    Dr. Porter, we appreciate you being here today to talk 
about the corals as a case study in biodiversity. Your 
participation is especially timely, since World Reef Awareness 
Day was just this past Saturday. You mentioned in your 
testimony that corals are a marine medicine cabinet of sorts, 
that the unique organisms we find only in coral ecosystems are 
being used for new drugs that address deadly diseases. Can you 
talk a little bit more about the health innovations that have 
resulted from coral so far?
    Dr. Porter. Yes. Thank you, Madam Chairwoman. I can be 
quite specific about this. A new drug has just been discovered 
from tropical sea fans called prostaglandin. It's one of the 
most effective at curing breast cancer. And another drug has 
just been discovered from a strange marine creature called 
bryozoan, and that one has been used to cure prostate cancer.
    Coral reefs are the oldest environment on Earth, with 400 
million years of continuous evolution. And at that point in--
with that kind of time, they have evolved chemicals to defend 
their own territories, and their own lives, and we humans are 
benefiting from 400 million years of their evolution. Thank 
you.
    Chairwoman Johnson. Well, thank you. Are these research 
activities supported by any Federal grant funding?
    Dr. Porter. Absolutely. All of the Federal agencies that 
have marine aspects to them are involved, the National Science 
Foundation, the Environmental Protection Agency. National 
Oceanic and Atmospheric Administration also has sanctuaries 
program. And, in addition, funds coming from the Smithsonian 
have been key. I myself was a pre-doctoral fellow 50 years ago 
from the Smithsonian, thank you, and that started my career, 
they are education and research involved in all of those 
agencies. Their ocean missions must be supported.
    Chairwoman Johnson. Well, thank you. Now, the 
pharmaceutical innovators that are already experiencing 
challenges when they seek to develop new therapies due to the 
coral bleaching and death, could you explain some on that?
    Dr. Porter. Yes. Corals are a mixture of a plant and an 
animal. Fifteen percent of the weight of a coral is actually 
living algae, and this symbiosis is the basis of coral 
survival. When temperatures rise, the algae are no longer able 
to photosynthesize, and they leave the coral, and it starves. 
That's why temperature is so disastrous. We are involved in 
genetic research, and biochemical research, to understand that 
intimate linkage.
    We know that some corals, over the last 50 years, have 
developed a tolerance for higher temperatures. This is by the 
production of heat shock proteins. Those heat shock proteins 
may indeed help humans survive elevated temperatures. There's 
active research from all of those agencies on the resistance of 
corals to rising temperatures, but the scale of the problem--
the whole world's oceans are involved--means that we should cut 
the problem off at its source as soon as we can. Thank you.
    Chairwoman Johnson. Thank you. Now, Dr. Watson and Dr. 
Brauman, your report says that biodiversity supports social and 
mental wellbeing in people, and that biodiversity loss is 
already having negative effects on our emotional health. Can 
you comment some on that, both of you?
    Dr. Watson. Yes, thank you. There's no question that people 
have mental wellbeing when they walk through a forest, when 
they walk by a river. We also found, in a separate study that I 
chaired in the United Kingdom, that if you looked at the price 
of housing that was close to a park, close to river, close to a 
forest, or woodlands, the price of houses went up quite 
considerably, basically. So there's lots of evidence that 
people feel good when they commune with nature, basically. And 
as we destroy our forests, we destroy our rivers, basically 
people lose out, and so mental wellbeing is indeed a crucial 
aspect of one of the benefits we all get from nature.
    Dr. Brauman. I'll add that there's really excellent growing 
research on child development and exposure to nature, that the 
complexities, and interesting parts of being in nature as a 
child are very important. The field of study and actually 
biophysical mental health response to nature exposure is 
growing, and is certainly an area that's very exciting, and in 
need of further research.
    Chairwoman Johnson. Thank you very much, my time has 
expired. Mr. Lucas.
    Mr. Lucas. Thank you, Madam Chair. Mr. Goodwin, one of the 
soil health management principles you mentioned is optimize 
disturbance. You and I both know, but many of our colleagues 
might not, that prescribed burns, grazing, herbicide 
applications are actually beneficial for land, if managed 
correctly. You even point out in your testimony that the Great 
Plains has lost some of its vast biodiversity because of 
limiting, or completely removing, fires and grazing. I guess my 
question is this, when talking about land use, can you explain 
why actively managing land is more beneficial to the 
environment and biodiversity than simply letting nature run its 
course?
    Mr. Goodwin. Yes, sir, and thank you for the question. I 
think it's important for us to understand the history behind 
how these ecosystems evolved. When we look at the Great Plains, 
or southern Great Plains in particular, those systems evolved 
for thousands of years. The plants, the soils, the animals, all 
of them evolved under two primary natural disturbances: Grazing 
(herbivory) and fire. Today our producers manage those two 
disturbances with prescription. They manage the timing, the 
intensity, the frequency, the duration of that grazing event, 
and that prescribed fire, to benefit habitat management for a 
number of species. For instance, the timing of a prescribed 
fire might increase--production for both game and non-game 
grassland bird species. And so understanding, really, the 
history behind it, plus also understanding that we need to 
educate policymakers, and the growing public, on the benefits 
of both grazing and fire in these systems.
    We used to have a fire culture in this country. We used to 
teach it in grade school. We don't do that anymore. I think we 
need to understand that--if we understand those two items, then 
we've moved a long way into the future to helping biodiversity 
within that system.
    Mr. Lucas. And, Mr. Goodwin, when talking about modern 
agricultural practices, you refer to this movement as being 
born out of innovation and economically stable practices. You 
say specifically that this is not born in a laboratory, or 
formed by regulatory requirements. There's a fine line between 
doing things for people and doing things to people. Congress 
struggles to walk that line sometimes. Why is it important that 
these practices you discussed in your testimony be driven by 
producers, and left unimpeded by regulation?
    Mr. Goodwin. I think, just like the diversity that this 
report is trying to protect, the agricultural landscape is just 
as diverse. We look across the U.S., we've got extremely 
diverse soils, we've got different climatic zones, we've got 
different production systems with different production 
capabilities. We even apply our practices differently, 
depending on the location. And so, in short, when we look at 
farms and ranches, no two are equal. Different soils, different 
plants, different associations. So these regenerative solutions 
that were built by principles, they were built on that 
producer's innate ability to be innovative, and doing things 
differently on their own, without being asked or forced to.
    So as we look at policies that establish a sort of blanket, 
or one-size-fits-all regulation, we would largely end up with 
unintended consequences, and ultimately limit our producers 
freedom to operate, and freedom to innovate.
    Mr. Lucas. Mr. Goodwin, neither you or I are old enough to 
have been in Oklahoma in the 1930s, in the Great Dust Bowl 
period, but in your testimony you say producers began to 
experiment with farming techniques based on equal parts of 
necessity and frustration. Can you elaborate on those 
frustrations, the lessons discussed, how we move forward, and 
compare where we are now on farms and ranches with where our 
ancestors would have been in the gut of the 1930's, the 
horrible part of the Dust Bowl, and that period?
    Mr. Goodwin. Certainly. The Dust Bowl was a terrible time. 
Families were decimated, so was the land. It was the formation 
of many organizations, mine included, as well as the Soil 
Conservation Service, as you well know. I think some of the 
frustrations we face is we need to keep in mind that farmers 
and ranchers--it's not Hollywood, it's a business. Some are 
large businesses, some are small businesses, and input costs 
over the last 60 years have increased to where those producers 
can't operate the way they once did. They're business owners, 
and they need to have that ability to look for compelling ways 
to stay innovative.
    Those are some of the ways that have led to those 
frustrations, and, really, to abandon--they've moved them 
toward abandoning tradition of the last 60 years, and looking 
for those compelling regenerative solutions that help them 
ecologically and economically, sustainably, provide that food 
source for the growing public.
    Mr. Lucas. So, essentially, whether it was for the right 
reason or the wrong reason, nonetheless producers out there 
have been compelled to adopt a better path?
    Mr. Goodwin. Most certainly.
    Mr. Lucas. Thank you. Yield back, Madam Chair.
    Chairwoman Johnson. Thank you very much. Mr. Bera.
    Mr. Bera. Thank you, Madam Chairwoman. Dr. Monfort, you 
talked a little bit about the impact of population, and I don't 
remember the exact numbers you gave, but, you know, clearly our 
population is rising at a much faster rate than, you know, when 
we look at history. My other Committee's the Foreign Affairs 
Committee, and we spend a lot of time thinking about the impact 
in sub-Saharan Africa, you know, kind of this youth bulge, and, 
you know, the number of people that are displaced right now not 
just by war, but by famine, by lack of water, et cetera. And, 
you know, if you could just maybe expand a little bit on, you 
know, we all understand the impact of climate change on loss of 
biodiversity, et cetera, but if you could maybe comment on the 
impact of, you know, population expansion?
    Dr. Monfort. Well, generally, you know, population 
expansion means an increased use of resources, or a wiser use 
of resources. You know, sort of referencing the question 
earlier, it had to do with, you know, whether we have protected 
areas, or national parks set aside, and allow them to remain 
intact, versus what goes on outside the park. And the truth is 
we live in functionally what you would describe as a landscape 
mosaic now, where virtually the entire globe is a variety of 
different land usages. And so we're really in a situation where 
we need to wisely be able to manage those resources.
    If you go back to the example of the oryx, these are 
nomadic peoples that are using a grassland--a rangeland system, 
grazing camels and other livestock, and reintroducing oryx is 
really an effort to introduce land management practices that 
will allow sustainable use of the ephemeral grasses that will 
support livelihoods of the people there. So oftentimes it's 
really about--it is absolutely about better management, better 
land stewardship, and creating win/wins with the people who 
depend on biodiversity for their survival.
    Mr. Bera. So, as a life scientist--I'm a physician by 
training--I agree with everything that you're saying. Now, I'm 
going to do a town hall on Thursday evening, and I'm going to 
have to explain to my constituents why this is incredibly 
important. So if each of you could give me a way to put into 
words that, you know, that mom or dad or who's trying to pay 
their mortgage, that's trying to get their kids to soccer 
practice, would take the urgency of, you know, why this is an 
impact. Maybe starting with Dr. Watson, how I would explain it 
in a sentence or two to my constituents?
    Dr. Watson. To answer your first question, sir, it's a 
combination of an increase in population, and a wealthier 
population, has led to an increase in per capita consumption, 
and so we need to deal with both of those issues.
    But biodiversity fundamentally is not just an environmental 
issue. Nature has economic value, which we should take account 
of in our accounting systems. It also has development value, 
food, water, energy security, human health. It also is a moral 
issue, we shouldn't destroy nature, and there's a social issue, 
as you've heard, that the most disadvantaged of poor people are 
most adversely affected. So there's multiple reasons we should 
care about both climate change and biodiversity.
    Mr. Bera. Right. Dr. Brauman?
    Dr. Brauman. From the very food we eat, to the way we 
define ourselves, and our sense of place, nature is an 
incredibly integral part of all of our lives. And when we 
destroy nature, we really undermine all of those life support 
systems on which we depend.
    Mr. Bera. Great. Dr. Porter?
    Dr. Porter. Yes. Ninety-four countries, half of all nations 
on Earth, have coral reefs within their boundaries. If we 
destroy their source of income, and protein, and livelihood, 
they will be the climate refugees that will move all over the 
world, and make this place more conflictual.
    Mr. Bera. Right. Mr. Goodwin?
    Mr. Goodwin. Yes. I mean, I think it's just important to 
recognize that nature is important, and we need to do a better 
job of telling the story of the good things that are happening 
out on the landscape as well.
    Mr. Bera. Great. And Dr. Monfort.
    Dr. Monfort. Yes. Some of these have been said, but 
ultimately it's about health, and prosperity and security are 
sort of fundamental policy issues, but if anyone enjoys being 
in nature, hiking, camping, fishing, hunting, any sort of 
recreation, they should care about biodiversity.
    Mr. Bera. Great. Thank you, and I'll yield back.
    Chairwoman Johnson. Thank you very much. Mr. Marshall?
    Mr. Marshall. Thank you so much. I'm one of those people 
that enjoy being out in nature, and I've always believed that 
the solutions that rely in sound conservation practices and 
innovation. I'm a big fan of Ducks Unlimited, Pheasants 
Forever, Quail Unlimited, the National Wild Turkey Federation, 
just to name a few that I've been involved with, and the key to 
all these programs are re-establishing habitat, that we, as 
hunter and fishermen, know that habitat is absolutely the key 
to success, and great stories I could share, particularly what 
Ducks Unlimited has done to re-establish some of the wetlands 
areas through North America. Mr. Goodwin, do you have any 
relationships with any of those organizations? I'm kind of 
shooting from the hip here.
    Mr. Goodwin. Well, I mean, I'm certainly a hunter and a 
fisherman, enjoy the outdoors, and I'm on the Board of 
Directors for the Society for Range Management, that promotes 
habitat management across all of the rangeland. So did you--
specifically would you like me to address a question?
    Mr. Marshall. Not yet. I'll give you a follow up question 
here. One of the big investigations I went on several years ago 
was trying to understand the lesser prey chicken, what's kind 
of happened to its population, and something that might impact 
part of their rangeland is down in Oklahoma as well. And what I 
discovered is the best place in the country at re-establishing 
that habitat actually went back to the way nature was hundreds 
of years ago, in that we had buffalo ranging through the Great 
Plains. They didn't stay in one field, they ranged up and down, 
north to south, in the season.
    So there was grazing practices, and, guess what, there was 
also natural occurring fires. And the people that are 
replicating those, establishing that habitat, a little bit of 
rain is what's really brought back the prairie chicken 
population. So maybe just give you a little bit more rope to 
talk about how important it is, maybe tie in some weather 
reports, national weather reports, how we use those to 
prescribe fire practices, and how we're using that for even 
endangered species, like the lesser prairie chicken.
    Mr. Goodwin. Thank you, sir. Yes, and so--when we look at 
how we manage landscapes from a rangeland perspective, habitat 
is always in our mind. I mean, this is habitat for numerous 
terrestrial species, and so I want to look at those management 
practices that we apply to that landscape. Certainly fire and 
grazing are important to those, and they're not necessarily 
just practices. They're ecological processes that helped meld--
and helped those processes, and that ecology, evolve.
    Specifically, with the lesser prairie chicken, yes, they 
like those heterogeneous landscapes, so they have their booming 
grounds. And managing the timing, frequency, intensity, and 
duration of grazing and fires, how we help that species evolve 
and sustain itself. And so certainly--and with respect to NOAA 
(National Oceanic and Atmospheric Administration), and 
prescribed fire, yes, most certainly we use those data every 
day. When we employ--or implement a prescribed fire, it's by 
prescription. We prescribe the weather conditions. We prescribe 
all of the conditions that--of which we burn, and we ask for a 
site-specific spot weather forecast. Those data are absolutely 
invaluable to us, not only form a perspective of planning, but 
also safety. It helps us document the pre- and post-burn 
conditions, and, most importantly, it helps us make management 
decisions on the ground.
    Mr. Marshall. Exactly. I've done quite a bit of that 
pasture burning myself. I've often suggested I should sell 
tickets to let people help me, but that wind report is 
especially important.
    Dr. Porter, you were referring to some biopharmaceuticals, 
and their use of coral. One of the great things about people in 
the hunting and fishing realm is that we always work just as 
hard to leave it better than we found it, and want to go back 
and work with the habitat to help it be better. What's 
happening in the world with Big Pharma, whoever's, you know, 
accessing some of these coral medicines? What are they doing to 
help refurbish the reefs?
    Dr. Porter. Yes, they have been very active in that. For 
coral reefs, there is an entire program called bioprospecting, 
in which animals from coral reefs are being investigated. It 
turns out the sponges are especially good at giving us new 
compounds. They have been an ally. I have also worked with 
Trouts Unlimited exactly for the same reason. They are a force 
in conservation, and they should be supported. Thank you.
    Mr. Marshall. Thank you so much. I yield back.
    Chairwoman Johnson. Thank you so much. Mr. Lamb.
    Mr. Lamb. Thank you, Madam Chairwoman. Mr. Goodwin, I 
wanted to ask you about some of your research into cover crops, 
and where you've seen success out where you are. The climate of 
where I come from, in Western Pennsylvania, is probably pretty 
different from where you're conducting research. We're seeing 
an increase in particularly early-season storms, rain storms, 
very intense, so dealing with a lot of water. Are there crops 
you've seen in your research that have been especially 
effective at increasing the biodiversity of the soil when it 
comes to kind of a wetter environment?
    Mr. Goodwin. Well, Oklahoma and the Southern Great Plains 
aren't necessarily known to be a wet environment, although I'd 
argue this year it's pretty wet.
    Mr. Lamb. Um-hum.
    Mr. Goodwin. So, you know, I think when we step back, and 
we look at how we design cover crop mixes, we certainly test 
the soil. We want to understand what condition that soil is in, 
and so--and then we tailor cover crop mixes to help us balance 
carbon and nitrogen ratios to increase not only the species 
diversity, but--in above ground, you know, biomass, but also 
rooting structures.
    Mr. Lamb. Right.
    Mr. Goodwin. We don't want just tap rooted perennials. We 
want fibrous root systems, and all those, and those all help us 
increase soil structure with--it helps us to increase 
infiltration. We don't have any control over how much rain we 
get, but we certainly have control over how much we keep, and 
how much infiltrates into the soil, and recharges aquifers.
    Mr. Lamb. So are there certain species that help with that, 
with the more deeply rooted systems that you're looking for, 
or----
    Mr. Goodwin. Yes. I mean, we've got forage species, like 
forage collards, and nitro-radishes, and those sort of species 
that wildlife do use. They provide flowers for pollinators, and 
they also have deep taproots that help leave--or help that 
integration to where we can get infiltration further into the 
soil profile.
    Mr. Lamb. And I'm aware that there is some research going 
on more widely about whether we can develop new forms of cover 
crops that will more efficiently store carbon, and sequester 
carbon at a higher rate than some of the existing ones. Is your 
organization involved in any of that research, or are you 
familiar with it? Are you seeing any success in that area?
    Mr. Goodwin. We are. Nobel Research Institute's keenly 
involved and interested in understanding how we can use cover 
crops in specific areas. They're a tool. It's not a silver 
bullet. Certainly, when we look back, and look at how we want 
to manage for soil health, they're one piece of the pie. Just 
because I plant cover crops doesn't mean I'm increasing my soil 
health. I have to manage that crop specifically. But, yes, 
we're most certainly interested in understanding, again, how 
that root dynamic adds to carbon sequestration, how do we 
increase the root's ability to increase the productivity of 
that plant, but also, how does it attract the diversity of 
microbes. We learn more and more that more of the organic 
carbon in the soil is actually microbial bodies, as well as 
decomposed organic material. So--yes, sir.
    Mr. Lamb. Thank you. And, Dr. Brauman, I saw you nodding 
your head, so if you want to jump in--I'm just curious about 
specific research efforts that maybe we could look at to try to 
help further along--that maybe involve new species of cover 
crops, or rediscovered species. Are you familiar with that at 
all?
    Dr. Brauman. Absolutely. There's really interesting 
research going on at the University of Minnesota, and I would 
be happy to submit some information about that for the record. 
One of the things that they've been working on are actually 
perennial cover crops and perennial food crops. So these are in 
development, but what we're starting to see are crops that are 
sort of on the verge of coming to market, like perennial wheat 
grasses. What that means is that there's not actually a bare 
period on the soil at all, and especially with these wet 
springs, which, in the climate forecast, we see much wetter 
springs in the middle part of the country, as well as drier 
falls, and so having those crops on the ground is really 
important.
    Nice research at the University of Minnesota. We're seeing 
really nice cold weather research, which is relevant to Western 
Pennsylvania, as well as Minnesota, where what we want to make 
sure is that we don't see, for example, fall applications of 
fertilizer. Instead, the fertilizer goes on after crops are in 
the ground, and in multiple iterations so that, when we have 
wet springs like this, it doesn't all just roll right off the 
ground.
    Mr. Lamb. I see. I read something about a variety of 
mustard plant that people were trying to create out in 
California. Are you familiar with that, Mr. Goodwin? Have you--
--
    Mr. Goodwin. Not----
    Mr. Lamb. I think it was a genetically engineered new plant 
that they thought would add carbon at a higher rate. Just a 
last technical question, if we ever got to the point where, 
say, we decided we wanted to try to compensate farmers for 
growing a certain type of cover crop because it increased, you 
know, it took carbon out of the atmosphere, is that a 
technically possible thing to measure? Can you measure how much 
a farmer has contributed with the crop they use? Go ahead, Dr. 
Brauman.
    Dr. Brauman. Absolutely, and there's research going on at 
the University of Minnesota on exactly this issue right now. 
And it's going to be critical--I'm not sure what the situation 
is for rangeland in Oklahoma, but in Minnesota, sowing cover 
crops is expensive, and lots of farmers can't afford to do it 
unless there's a way to monetize that somehow. It's just an 
extra cost on their shoulders, when it's a benefit to all of us 
to do it. And so looking for incentives and payments is going 
to be critical.
    Mr. Lamb. Great. Thank you. I yield back.
    Chairwoman Johnson. Thank you very much. Mr. Baird.
    Mr. Baird. Thank you, Madam Chair. Mr. Goodwin, I know, and 
you mentioned, the importance of the land to farmers. And, you 
know, the scientists at the colleges of agriculture and 
agriculture extension programs are constantly developing 
innovations, and looking for better ways to produce more food 
on less land and water, so one of the things that I see is the 
new technology, and the equipment that we have today, we're 
able to more specifically place some of the things that are 
important to growing a crop, and universities, and the 
agrobusiness, as well as the extension program, are constantly 
looking for ways to improve on that. So I guess my question is 
would you care to comment on how important that aspect of this 
research in protecting biodiversity?
    Mr. Goodwin. You know, I think there's always room for 
technology. We can--anytime that any of us say that we don't 
have room for improvement, it's a foolish statement. And so 
certainly we always look for technological solutions, if there 
are. I think, in this case, that there's certainly room for 
technological solutions, like new sensor technologies, to help 
us understand the ecological dynamics that we can't see.
    I also think that we need to step back at times and say 
technology's not always the solution, that we need to work with 
Mother Nature, and help understand that we can apply these 
ecologically beneficial practices, and still feed the planet.
    Mr. Baird. Thank you, Dr. Brauman, you discussed the 
importance of biodiversity in agriculture. Are there any other 
crops, besides soybeans, for example, like the work that's 
being done at Purdue--they are internationally renowned for the 
work on genetic structures of crop plants like soybeans. So are 
there any other crops, besides soybeans, that are lacking in 
biodiversity, and in a need of innovative research?
    Dr. Brauman. I can't speak to the specific crops where 
there's great potential, but what I do know is that there are 
many crops where this kind of development could be incredibly 
beneficial. Soybeans had a huge development in the mid century 
of last century to get them to the productivity point that 
they're at today, and they're continuing to do that work. We 
know that, with almost all of the crops we grow, any time we 
can do innovation, and that ranges from reducing drought 
sensitivity, to better utilizing nutrients, to simply being 
better sighted in the places where we're growing them, that we 
are able to grow food more efficiently with less inputs, and 
that's always a benefit.
    Mr. Baird. Thank you. Back to you, Mr. Goodwin. You noted 
that the Nobel Research Institute (NRI) conducts independent 
agricultural research similar to our land grant universities. 
So how does the NRI disseminate its research to the broader 
agricultural industry?
    Mr. Goodwin. We provide consultation services directly to 
farmers and ranchers in the southern Great Plains, so we work 
directly with those producers in an inter-disciplinary approach 
to provide conservation recommendations based on their goals 
and objectives, and we also have an extensive educational 
program. We have thousands of people a year come to the 
Institute to learn by seeing what exactly we're doing, and how 
we implement those practices on the 15,000 acres that we own 
and operate as an Institute. We also certainly publish in 
popular and scientific journals. Thank you.
    Mr. Baird. One last quick question. Do you feel this works 
well for small farmers as well as large agrobusiness, and so 
on?
    Mr. Goodwin. I think there's a regenerative solution for 
all size operations. I don't think size is a limiting factor. 
The limiting factor is, do we think we can do it, and the 
answer is yes.
    Mr. Baird. Thank you, and I yield back.
    Chairwoman Johnson. Thank you very much. Ms. Stevens.
    Ms. Stevens. Thank you, Madam Chair, and thank you to our 
expert witnesses for joining for today's panel, and 
congratulations on the recent report. Certainly quite timely 
for us, as the Committee on Science convenes to make its mark 
on how we can protect our biodiversity.
    We recently had a hearing in the Subcommittee for Research 
and Tech on plastics and recycling technologies. I continue to 
hear from municipalities in my district, suburban Michigan, 
around the challenges that they're having recycling due to the 
lack of infrastructure. And, Dr. Brauman, you, in your 
testimony, referenced plastics pollution, that it's increased 
tenfold since the 1980s. And I'd like you to just talk a little 
bit about the urgency that we have in the country to invest in 
infrastructure to handle the waste that we produce with 
plastics, and, you know, maybe talk a little bit too about the 
timeframe that we have in making these investments to revive 
some of our biodiversity in this country.
    Dr. Brauman. Thank you. There's been a huge increase in 
plastics, and indeed in all kinds of waste, from food waste to 
waste that does not biodegrade, like plastics, in the United 
States, and around the world. We see this increase in 
consumption very clearly in the report. And what that's done is 
create waste that we then have to do something with, and the 
need to be able to recycle and reuse these waste products, as 
well as to simply produce less of them, is critical.
    We know that, particularly in the oceans, there's a huge 
problem with plastic waste, and that there's little that we're 
able to do about it once it's in the oceans, and so stopping it 
before it gets there is something that is incredibly important.
    Ms. Stevens. In the oceans and in our food.
    Dr. Brauman. Yes. Plastic microbeads is actually a fairly 
good example of things that people have begun to take out of 
products, at least in the United States, and so it's clear that 
we can do something about this when we want to. We are, 
however, seeing lots of these things everywhere, all around the 
world, and so making sure that we can reduce consumption, 
reduce waste, and then also manage waste in better ways is 
critical, and the sooner we do it, the less we're going to have 
to clean up later.
    Ms. Stevens. Yes. Great. And--yes, did you want to chime 
in, Dr. Porter?
    Dr. Porter. Yes, thank you.
    Ms. Stevens. Yes, please.
    Dr. Porter. The estimate now is that by 2050 there will be 
more plastic in the ocean than fish.
    Ms. Stevens. Yes. Great data point. Thank you. We're not 
doing it right in the hearing on biodiversity loss and causes 
if we're not talking about invasive species. I'm also not doing 
my duty as a Michigander without talking about Asian carp that 
has created huge problems in the marine ecosystems in the 
Mississippi River and in Illinois. There's been a long campaign 
to build the infrastructure to keep Asian carp out of Lake 
Michigan. Currently there is a $778 million plan to stop the 
spread of Asian carp to the Great Lakes. The leading edge of 
the carp population is really, at this point, only 47 miles 
from Lake Michigan.
    And, Dr. Watson, if I could turn to you on this, in your 
testimony you referenced that invasive species, such as Asian 
carp, will likely exacerbate some of these trends that are 
continuing to negatively impact biodiversity. Where do you 
believe the Federal Government could rightly partner at the 
State and local level in investing to make the biggest impact 
in combating invasive species?
    Dr. Watson. Yes. As our report said, alien invasive species 
are one of the five direct drivers of loss of biodiversity. And 
indeed, especially in freshwater systems, such as you've 
mentioned, one has to take care. The real challenge is to 
prevent alien invasive species entering our system in the first 
place. Once you get these species, it's very hard, in many 
cases, to get rid of them, basically. So I'm not sure what can 
be done with respect to Asian carp to be honest, our report 
didn't deal at the subnational level with approaches to dealing 
with alien invasive species, although Kate may have some better 
ideas.
    Dr. Brauman. Yes. I will say that in Minnesota, we've 
actually--the northern--the uppermost lock and dam on the 
Mississippi River is now permanently closed, and so that was, 
obviously, work that was done with the Army Corps of Engineers 
in large part to make sure that invasive carp don't actually 
get above that part of the river. But I absolutely agree with 
Dr. Watson, we at least know the problems we're facing with the 
invasive species that are in the country already, and there's 
no reason to think that future invasive species won't be worse, 
and so doing a better job keeping those invasive species out is 
going to be critical.
    Ms. Stevens. It's like a bad horror movie with the carp. 
Dr. Monfort, I know you were raising----
    Dr. Monfort. Yes----
    Ms. Stevens [continuing]. Your hand, and we actually wanted 
to get you in on this----
    Dr. Monfort. OK. Sure. I just----
    Ms. Stevens [continuing]. Reference the Smithsonian, and 
all sorts----
    Dr. Monfort. Right.
    Ms. Stevens [continuing]. Of great programs, so----
    Dr. Monfort. Well, one of the ultimate invasive species has 
been the chytrid fungus, which is responsible for a global 
decline in amphibians, and--so studying the origin of these 
invasions, and tracking them, and understanding how they 
function is something also that we need to do a better job 
with.
    At the Smithsonian, though, we work with the Coast Guard 
and--on marine invasive species, and we have the National 
Ballast Information Clearinghouse System, which is a system 
that samples ballast water from all ships that are coming into 
our ports, and we've monitored 550 species of marine and 
estuarine invertebrates and algae, for example. So this is an 
example of how you can go about being proactive in monitoring 
and tracking these organisms and how they're moving.
    Ms. Stevens. Fabulous, thank you. I yield back the 
remainder of my time.
    Chairwoman Johnson. Thank you very much. Dr. Babin.
    Mr. Babin. Yes, ma'am. Thank you, Madam Chair. Thank you, 
everyone, for being here. Appreciate your testimony. Dr. 
Brauman, I would like to ask you first, I have the honor of 
serving as the Ranking Member on the Space Subcommittee, as 
well as getting to represent Johnson Space Center, and I've 
seen many examples of NASA's collaborations with private 
partners to foster innovation and technological growth, from 
remote sensing robotics to GPS and technologies for growing 
crops in space, NASA's space exploration and Earth science 
efforts have yielded remarkable benefits for farms and economic 
activities and industries. Do you see more collaborative 
opportunities like these to address the issues that we're 
discussing today of biodiversity?
    Dr. Brauman. Absolutely. I have actually received a grant 
from NASA last year to run a series of workshops where we 
brought practitioners, as well as researchers, together to look 
at better ways to use Earth observations as we assess and do 
management based on ecosystem services, and it's clear that 
there's a tremendous opportunity. One of the things that's also 
very clear is that, in addition to more basic research, we need 
to be supporting a lot of the background systems that make the 
kind of information that NASA is developing more accessible to 
more people. So, if you're an expert, if this is what you do 
for a living, it's easy to grab their data and do----
    Mr. Babin. Right.
    Dr. Brauman [continuing]. Informative things. But it's hard 
if you're not.
    Mr. Babin. Great. Thank you very much. And, Mr. Goodwin, 
the threat of pollution on biodiversity in ecosystems is a 
global issue, and a solution is reliant on the participation of 
other countries, as well as us. How can we ensure that other 
countries, big polluters like China and India, are taking the 
steps toward cleaner solutions, and that the financial burden 
of tackling global pollution isn't solely on the backs of the 
American taxpayer?
    Mr. Goodwin. I'd have to say that's out of my wheelhouse. I 
could speak to the benefits and the good things that our 
producers here in the United States are doing, but I'm not your 
guy for China.
    Mr. Babin. OK. But you catch my drift though, right? Well, 
I'll ask you another one. You mentioned in your testimony many 
different practices that have increased soil health and 
productivity. Similarly to my second question, do you see any 
other countries adopting similar measures? Now, that may be out 
of your wheelhouse too. And how can we make sure that these 
other countries are taking steps forward in these areas as 
well, and that the U.S. is not the only party making these 
strides?
    Mr. Goodwin. Well, certainly, for soil health management 
strategies, this revolution is not solely performed in the 
United States. There are producers, ag producers, all around 
the world, implementing these principles. And if we focus on 
the key core soil health building principles--when we look at 
habitat, and we look at diversity, often we look at it from the 
top down, and I would submit we need to look at it from the 
bottom up. We need to----
    Mr. Babin. Right.
    Mr. Goodwin [continuing]. Fix the foundation. Increase the 
soil health, increase the plant communities. Those plant 
communities provide the habitat for those wildlife species. 
Those principles work whether you're in Nairobi, Kenya or in 
Muskogee, Oklahoma.
    Mr. Babin. Do you believe it should be the role of the 
American taxpayer, through taxes and regulations, to be 
responsible for solving these issues, and do you believe 
through private partner relationships we can foster innovation 
and efficiency?
    Mr. Goodwin. I most certainly think there's opportunity for 
partnerships. I do think it's the role of each individual 
producer to have the ability and the freedom to operate their 
producer--or their private property as they need to, and more 
and more producers are seeing that these ecologically focused 
principles are benefiting us in both ways, both economically 
and ecologically.
    Mr. Babin. But is it the American taxpayers' job to solve 
the problems on global issues?
    Mr. Goodwin. No, sir.
    Mr. Babin. OK.
    Mr. Goodwin. It is not.
    Mr. Babin. All right. And then also, my last question, I 
represent southeast Texas, which is home to a lot of ag, and it 
just so happens that my district is, unfortunately, also in a 
flood prone region with hurricanes. This has created a lot of 
issues with harvesting and crop production. Can you elaborate a 
little bit on how some of these new practices could help 
protect crops and soil during inclement weather and floods?
    Mr. Goodwin. Well, certainly, if we look at the--again, 
those foundational principles, the first one is keeping the 
ground covered. We don't want those erosive losses providing 
further sediment downstream any more than anybody else does.
    Mr. Babin. Right.
    Mr. Goodwin. And so, yes, the principles help us build the 
ability and the capacity for those soils to hold water back. 
And so we're going to fix these ecological problems with 
principles, not just applying practices on the landscape. We 
have to rethink how we look at it, and look at our practices as 
a set of tools, and implement those where they need be locally.
    Mr. Babin. Thank you. My time has expired, Madam Chair. 
Thank you very much.
    Chairwoman Johnson. Thank you. Mr. Tonko.
    Mr. Tonko. Thank you, Madam Chairwoman. Dr. Watson and Dr. 
Brauman, I would like to pause to get a better picture of how 
the IPBES conclusions were reached, and what the scientific 
process looks like in practice. Who wrote this report?
    Dr. Watson. Thank you. First of all, governments around the 
world scoped the report. In other words, they worked with the 
science community to say, what were the big scientific policy 
issues that needed to be addressed? We then had governments and 
the scientific community nominate experts to write the report. 
Within IPBES we have a multi-disciplinary expert panel and the 
bureau. I used to chair the bureau. We then selected scientists 
from around the world, 150-145, to be precise--who wrote the 
report. Another 300 scientists around the world helped these 
145. Very strong peer review.
    We sent out our report to experts and governments around 
the world twice, and we received 15,000 comments on our report. 
We responded to all 15,000 comments, and then effectively the 
governments around the world accept the large report, the 1,700 
pages, and then, with the academic community, the lead authors 
and the co-chairs, we then negotiated the summary for 
policymakers, the 30-page document, between governments, 
including the U.S. Government. Over 100 governments 
participated in Paris, and the lead experts, such as Kate and 
others. So it's a very open process, incredibly transparent. We 
published the comments, we will publish all the responses, and 
it's probably one of the most heavily peer-reviewed documents 
you will ever find.
    Mr. Tonko. OK. And, Dr. Brauman, do you concur with----
    Dr. Brauman. Absolutely.
    Mr. Tonko. OK. And were any of the authors paid by industry 
to represent a particular point of view in their participation 
in the report?
    Dr. Watson. No. Everybody that participates in IPBES, 
whether they come from academia, such as Kate, whether they 
come from a government, or a government laboratory, or an NGO 
(nongovernmental organization), or the private sector, it's 
absolutely essential they participate in their individual 
capacity. IPBES has a Conflict of Interest Committee, and we 
scrutinize every single person that is either an author, a co-
author, a review editor, to make sure there is no conflict of 
interest. I used to chair such the panel.
    Mr. Tonko. OK. Well, I thank you both. As someone who 
deeply respects the scientific process, I'm concerned by some 
of the attacks on the IPBES conclusions. Recently, during the 
Natural Resources Committee hearing, some people didn't like 
the results, and seemed to try to poke holes in the process to 
get rid of conclusions that didn't suit them. However, anyone 
who wants to dig deeper can see that this was a rigorous and 
respectable process. As a Committee, we should play the role of 
helping to distinguish between false attacks on science and 
real instances of violations of scientific integrity. There are 
real examples where science is being suppressed, distorted, or 
indeed censored, and scientists are being harassed or 
retaliated against.
    I introduced the Scientific Integrity Act to ensure that 
every agency that funds science has strong scientific integrity 
policies in place. I invite all Members who care about 
scientific integrity to join me in that effort. I also am 
equally committed to standing up for good, rigorous, peer-
reviewed science. It was recently reported that the Trump 
Administration is working to change the scope of the National 
Climate Assessment by cutting off review to 2040. The existing 
review looks out to 2100 and beyond.
    We know that climate impacts have great effect on 
biodiversity, and we know that, if left unaddressed, climate 
impacts will get worse in the decades to come. With that in 
mind, will this new 2040 cutoff limit our understanding of the 
actual loss of biodiversity?
    Dr. Watson. Yes, without any question. There is a need to 
look at all plausible futures, out to probably 2100. Climate 
change is accelerating, and, even with the Paris agreement to 
try and limit climate change, much of the climate change will 
still occur after 2040, not only affecting biodiversity, but 
affecting food security, water security, human health, et 
cetera. So to try and limit a projection to only 2040 does not 
make good scientific sense, and it will absolutely harm 
informed, evidence-based policymaking.
    Mr. Tonko. Thank you. And Dr. Brauman?
    Dr. Brauman. I'll also note that much of the infrastructure 
that we build, and indeed many of the decisions we make, we 
certainly hope are going to last beyond something like 2040. 
And so, building those to design specifications that take into 
account what the world is most likely to look like in the 
future is critical.
    Mr. Tonko. So I thank you both for your response to that, 
and--sure, Dr. Porter.
    Dr. Porter. For coral reefs, the 2040 does not change the 
assessment at all. All of the things that I've described will 
occur before 2040.
    Mr. Tonko. OK. Thank you very much. With that I yield back, 
Madam Chair.
    Chairwoman Johnson. Thank you very much. Mr. Posey.
    Mr. Posey. Thank you, Madam Chair. Among its many concerns, 
the IPBES report specifically lists a conversion of undeveloped 
land into farmland as something that we should be particularly 
concerned about. Obviously we need to continue to feed billions 
and billions of people, and American agriculture producers lead 
the world in growing more on less land than ever before. As the 
world leader in food production, it's not clear to me that we 
should be concerned about land being converted to farmland. My 
concern has been, in this country, as well as other parts of 
the world, we are devoting an increasing amount of land and 
resources to non-food crops, such as ethanol. Simply put, 
should we be growing corn for food rather than fuel?
    Dr. Brauman. That's a great question. I can tell you what 
we know about production, and what we know about production is 
that, globally, we actually produce more than enough calories 
to feed the world today, and yet there are people that go 
hungry. And this is very much because we are diverting food 
crops to non-food uses, or to feed. It's beyond the scope of 
this report to say the decisions that we should make, but we 
certainly can talk about what the implications of the decisions 
that we are making, or that we might make, are, and what we 
clearly see is that it's the increase in consumption, 
particularly increasing consumption of meat, that is really 
driving much of this expansion of farmland at this point, 
because we do have plenty of farmland, and we do grow crops 
very efficiently here in the United States.
    Mr. Posey. Thank you. Dr. Watson, I see you writing like 
crazy.
    Dr. Watson. Yes. I think the challenge is, in many 
developing countries, to improve the yield per hectare. In many 
parts of Africa, they're still only getting a ton of produce 
per hectare, where they should easily be able to get three, 
four, five tons with more agroecological practices, appropriate 
use of fertilizers, et cetera.
    So, to feed the world, we don't actually have to double 
food production in the next 30 to 40 years, we have to double 
the availability of food. We waste 40 percent of all food 
that's produced in both developed and developing countries--so 
if we can reduce food waste, it moves us in the right 
direction, and if we can get rural development in most 
developing countries, educate the women, who are more often the 
farmers in developing--make sure they've got some good 
microfinancing, we could actually not expand our farmland, but 
increase the productivity of the land and, indeed, copy some of 
the practices that are common here in the United States.
    Mr. Posey. Mr. Goodwin?
    Mr. Goodwin. Well, I think there's certainly common ground 
in some of these areas when we talk about land use change, but 
I'd also say that we already have provisions for some of those 
in the Farm Bill, with the sodbuster provisions, to reduce some 
of those activities. But I'd also encourage you that those 
acres--the rangeland acres are extremely important. They're 
extremely important at producing habitat, and we graze those 
with an animal that has the ability to utilize a food source 
that we can't. We don't eat grass, it does, and it converts 
that into a very wholesome protein that we do consume. And so 
we've utilized that grazing as a tool to benefit habitat for 
both the cow and the wildlife species. So--thank you.
    Mr. Posey. Yes. Again, should we be growing corn for food, 
rather than fuel? Dr. Porter?
    Dr. Porter. No.
    Mr. Posey. You think we should be doing it for fuel?
    Dr. Porter. When we grow corn, I think it needs to be for 
food. I think there are other ways to address biofuels without 
converting corn to it.
    Mr. Posey. Good. Thank you. Dr. Monfort, care to weigh in?
    Dr. Monfort. No. I don't have an opinion on corn.
    Mr. Posey. OK.
    Dr. Monfort. Thank you.
    Mr. Posey. Thank you, Madam Chair. I see my time has 
expired.
    Chairwoman Johnson. Thank you very much. Mr. McNerney.
    Mr. McNerney. I thank the Chair, and I thank the witnesses. 
Pretty alarming testimony, folks. But first of all, I'd like to 
introduce a foster graduate that is tailing me today, and today 
this is Foster Day, so Erica Hickey, would you please stand up? 
And we're having a lot of foster youth with the Blue Ribbons 
today. Please given them some consideration today.
    Dr. Brauman, one pathway of achieving transformative change 
is addressing biodiversity loss by improving freshwater 
management, protection, and connectivity. California has long 
been a leader in energy and technology, and now we want to 
apply that innovation to water modernization in our water 
systems. The report says that biodiversity is central to water 
quality and security. Can you expand on that?
    Dr. Brauman. Absolutely. So the bottom line for that is 
that what we put on the landscape ends up in our freshwater, 
and so having biodiverse watersheds, with functioning 
ecosystems where we're seeing filtration of water, and 
regulation of water, as it gets into waterways is critical. 
Once freshwater is in these rivers, and lakes, and streams, 
then we also see cycling of nutrients, and lots of other 
different kinds of potential contaminants by both the plants 
and animals that are in the freshwater systems themselves. So, 
altogether, what we see is that these freshwater systems are 
much healthier when we have active flora and fauna.
    Mr. McNerney. I've seen demonstrations in Seattle of road 
runoff going into systems, and if it just was allowed to sit 
for a while, it refreshes itself, and fish can live in it. If 
it's immediate, the fish die, so I think that's a good point.
    Dr. Watson, your report says that the biodiversity and 
conditions that support it also play a role in regulating 
climate. Would you just say a few words about that?
    Dr. Watson. Well, yes, there's no question about it. If we 
can keep carbon in a both above and below ground biomass, it 
effectively stops it getting into the atmosphere. So one of the 
real challenges is how can we restore degraded ecosystems, how 
can we reforest degraded ecosystems, and how can we add forest 
systems with native vegetation? And so if we can manage our 
land properly, including the soil organic matter, we can 
actually keep the carbon, or much of the carbon, in soils and 
in vegetation, rather than in the atmosphere, where it causes 
human-induced climate change. So there's no question 
whatsoever, our ecosystems play a key role in managing at least 
the fluxes of carbon dioxide.
    Mr. McNerney. Well, following up on that a little bit, Mr. 
Goodwin, I'm intrigued by what I'd call carbon farming. Could 
you describe what that would be, and how it could be 
profitable?
    Mr. Goodwin. Well, I think when we look at CO<INF>2</INF>, 
or carbon, most of us think about CO<INF>2</INF>. There's 
CO<INF>2</INF> in the atmosphere and the terrestrial 
vegetation, but there's more in the soil than in both of those 
combined. And, as a producer, that's where we have our greatest 
impact. And the term carbon farming is about increasing the 
organic matter in the soil. And as we increase the organic 
matter of our soils, we also get these other soil dynamic 
properties that benefit us from an ecological/functional 
perspective. And so that's where we gain our inputs, is within 
the production systems that we currently operate.
    Mr. McNerney. Can it be profitable, in your opinion?
    Mr. Goodwin. Most certainly.
    Mr. McNerney. So that's a great tool in our fight against 
climate change, is absorbing carbon into the soils?
    Mr. Goodwin. Yes, sir.
    Mr. McNerney. Dr. Monfort, what chances are there of 
coordinating infrastructure investment and biodiversity 
planning?
    Dr. Monfort. Well, in terms of biodiversity in the future, 
it's absolutely essential that there be better coordination 
across different sectors that have an impact on the 
environment. Too often what ends up happening are conservation 
organizations and wildlife departments within governments will 
talk to one another, but other sectors that are often, 
especially in the developing world, much more influential or 
powerful, are not at the table. So, I mean, if you're trying to 
manage a system, or implement a new policy, and you only have, 
you know, the poorest wildlife department present, and not the 
Transportation Ministry, and the Health Ministry, and the 
economic advisors and so on present, it's unlikely you're going 
to have good policy come from that.
    So solutions really are possible. In our case, we work with 
oil and gas sector, for example, on doing biodiversity 
assessments before, during, and after linear pipeline 
developments, for example. We work with land owners who work--
we have a whole program on working land and seascapes where we 
have our--our scientists are working with large landowners, and 
trying to understand how can they make money and sustain native 
biodiversity on their soil, for example, on their property. And 
a third example involves sustaining wildlife in human care. 
Zoos simply don't have enough room, and so we work with, in 
Texas, for example, large ranches that private landowners are 
partnered together in something called conservation centers for 
species survival. So we recognize that conservation success 
will only be achieved when you bring in the stakeholders that 
control most of the resources, and that's governments and 
private sector entities.
    Mr. McNerney. OK. Thank you. I yield back.
    Chairwoman Johnson. Thank you very much. Mr. Gonzalez.
    Mr. Gonzalez. Thank you, Madam Chair, and to the witnesses 
for being here today. It's great to hear about the 
interconnectivity and role that biodiversity plays in our 
global environment. I was particularly interested to hear about 
the positive impact that biodiversity has on our economy, 
encouraging job growth in a variety of fields. One great 
example happens in my backyard, and that's with respect to the 
Great Lakes in northeast Ohio. Besides holding 18 percent of 
the world's freshwater supply, the Great Lakes support more 
than 1.5 million jobs, and generate $62 billion in wages, much 
of which is northeast Ohio-based. Great Lakes have produced a 
$7 billion economic activity return on investment, and it's 
important for us, as Congress, to continue to invest into 
resources like the Great Lakes to reduce biodiversity loss.
    Dr. Watson, in your testimony you discussed the 
interconnectivity of biodiversity, and how best practices need 
to be incentivized worldwide to enact transformative change. 
Can you discuss how countries can undertake this task while 
also maintaining steady economic production? For instance, in 
agriculture, how can farmers overhaul their current process 
while still maintaining profitability?
    Dr. Watson. Yes. The first thing that we say is we need to 
be very multi-sectoral. In other words, you can't look at 
agriculture in isolation of energy, transportation, water, et 
cetera. So in any government, if we really want sustainable 
production and use of biodiversity, we need to make sure we get 
all sectors involved, and all ministers involved. Having 
finance ministers involved in setting policies that are multi-
sectoral. We need to also make sure we get all stakeholders 
involved. In other words, not just governments, not just the 
private sector, not just NGOs, but everyone together. We need 
polycentric governance at all scales.
    There is actually no doubt agriculture throughout the world 
can be much more sustainable. We don't need to extensify. We 
need to use good agroecological processes, and so there is 
increased productivity. In my opinion, we can feed the world 
and save biodiversity, and feed the world in a cost effective 
way. As I mentioned earlier, reducing food waste is just one 
factor, but it's basically more than a productivity issue in 
developing counties, it's rural development. How do you allow 
the farmer there to develop a productive farm, and actually get 
their produce to market? So you need roads, you need 
infrastructure, you need microfinancing.
    But the transformative change also says we need to look at 
our economic structure. GDP is a good measure of economic 
growth, but it's not a good measure of sustainable economic 
growth. The World Bank, and many others, talk about the four 
factors of wealth: Natural capital, human capital, social 
capital, and built capital. We need to start to bring into our 
decisionmaking the value of nature in our decisionmaking, and 
complement the use of GDP.
    Also we need to look, to be quite honest, at some of the 
large subsidies throughout the world--agricultural, energy, and 
transportation--that are often very, very harmful to 
biodiversity. So we need to look at how do you have incentives 
for sustainable production, and try and eliminate many of these 
harmful subsidies.
    Mr. Gonzalez. Got you. And then following up, your 
testimony, you suggest that South America, Asia, and Africa are 
in the most danger of being affected by biodiversity loss. Can 
you elaborate on why this is, and whether current policies in 
North America and European countries have been more effective 
in combating biodiversity loss? And I realize we're talking 
about two totally different economies, right? Or three----
    Dr. Watson. Actually, even North America and Europe have 
not been as successful as we would hope in trying to protect 
biodiversity. Every country in the world signed up to the so-
called--Aichi Targets. There's 20 of them. What we found in our 
analysis is we're making progress on about four of them. Some 
of them we've even gone backward in the last 10 years, since 
the agreement in Japan. The trouble is the loss of biodiversity 
is the reason that can most affect certain people in developing 
countries, poor people are more dependent on biodiversity, 
nature, than we are in, say, North America and Europe, and so 
many poor people are quite vulnerable to loss of forests, loss 
of wetlands, loss of grasslands, et cetera.
    Mr. Gonzalez. And then I guess my final question quickly, 
with the 30 seconds I have, a lot of what you're referring to 
is happening overseas, outside of our borders. What can we, as 
the U.S. Government, or what should we be thinking about?
    Dr. Watson. Well, through our aid policies, we can 
certainly work with developing countries, transfer of 
knowledge, projects that show how you can be sustainable. So 
U.S. aid could play a very key role in showing how you could 
have sustainable agriculture, sustainable energy. All of that 
would go a long way to making a more sustainable world, and 
protect biodiversity.
    Mr. Gonzalez. Thank you, and I yield back.
    Chairwoman Johnson. Thank you very much. Ms. Fletcher.
    Mrs. Fletcher. Thank you very much, Chairwoman Johnson, and 
Ranking Member Lucas, for holding this hearing. Thank you to 
the witnesses for your testimony. It has been really 
interesting. I have jotted down numerous things to share, and I 
do want to follow up on a couple of questions, but first I have 
a document that I do want to introduce for the record. The 
Theodore Roosevelt Conservation Partnership has prepared a 
statement that outlines what biodiversity loss, climate change, 
and habitat fragmentation means for hunters and anglers, and I 
ask unanimous consent to enter the TRCP statement into the 
record. Thank you, Madam Chairwoman, and that may be a place to 
start.
    Dr. Monfort, we've heard a fair bit today about some of the 
challenges that wildlife is facing, including disease, invasive 
species, habitat loss. What resources do you think would be 
most helpful to Federal and State wildlife managers who are 
trying to confront the magnitude and complexity of the threat?
    Dr. Monfort. Well, I think knowledge is something that 
needs to be shared, and, as we learn about new approaches and 
techniques, we need to make sure that we're sharing those. I 
mentioned the Virginia Working Landscapes Program that we work 
in Northern Virginia. Basically, we don't have all the answers 
at the Smithsonian, but we know that together, collectively, we 
manage property. Out in our Front Royal facility, for example, 
we have 3,200 acres, so we're a large land owner and manager. 
We're trying to learn from each other by sharing knowledge 
about what works and why, and how we can take things to scale. 
This is sort of the theme of our Earth Optimism idea, how can 
we learn from one another to do better, and to find solutions?
    And so in a case like that we serve as sort of the 
intellectual hub. We bring the community together, and we share 
experiences, and we provide access to external advisors and 
partners, much like an extension agent might provide. So I 
think basically boots on the ground, working with people in the 
communities--in the areas that you're trying to affect change 
is really important, whether it's here in the U.S., or abroad.
    Mrs. Fletcher. Terrific, thanks. Another topic that we've 
covered this morning that I'm particularly interested in, 
because I'm from Houston, so represent a lot of folks down in 
Houston, where we're dealing with, of course, many of the 
impacts of climate change, in terms of our weather, in terms of 
storms, and also as we're confronting our energy future and 
what it looks like, so we're particularly interested in climate 
and climate change, and the topic of carbon sequestration is 
really important. It's one of the things that I think people 
are looking to. And so I think, Mr. Goodwin, this came up in 
questions to you about carbon sequestration, and also sort of 
carbon farming. And I think it also came to you, Dr. Brauman, 
about is this something we can measure?
    So we've heard some innovative and interesting ideas in my 
district about coming up with a market-based sort of carbon 
sequestration system that would use, for example, existing 
wetlands, or preserving native prairie, and I'd love to get 
your thoughts on some of those kinds of options; how we could 
measure it, and how we could move from where we are to having a 
real market-based system that would support that kind of 
preservation, and increase biodiversity.
    Dr. Brauman. So there actually are lots of really exciting 
models for this. Some of them are called payments for ecosystem 
services, and they really involve two parts, so one of them is 
really being able to measure what's the benefit. And there's 
lots of things we know. I work with the Natural Capital 
Project. We're doing lots of cool work really quantifying the 
stuff, and looking at where on the landscape it is. It's 
something that we need to do more of, but it's something that 
we know enough to start now.
    The other piece that's really important is having the 
institutional infrastructure to actually make a payment to 
receive things, and there's really neat models that are 
beginning to develop everything from water funds, which are 
becoming more common all around the world. There's some 
actually here in the United States, where water users are 
paying upstream residents to manage their lands in different 
ways to improve water. And what's really great about the 
ecosystem services framework is that it lets us plug into a lot 
of these existing market-based mechanisms.
    Mrs. Fletcher. Terrific, thank you. Mr. Goodwin, do you 
want to weigh in?
    Mr. Goodwin. Yes, absolutely. Certainly I think there's 
opportunities for us to look at solutions for incentivizing 
carbon sequestration and other ecosystem services. The fact is, 
for thousands of years, producers have been compensated for two 
ecosystem services, food and fiber, yet they're producing clean 
water, they're sequestering carbon. I think it's an opportunity 
for us to not look at the moral sense, but just provide an 
opportunity for market-based solutions. Not Federal regulation, 
but instances like the Ecosystem Market Consortium that's 
currently being put together. They brought together NGOs, they 
brought together large corporations to find solutions that are 
providing soil carbon water quality and water quantity 
solutions for farmers and ranchers.
    The problem with the measurement is it's expensive, and so 
we've look at spectral solutions, like looking at mid-near--
mid-vis spectroscopy. So we have to find ways to--and 
technology's going to help us move in that direction to limit 
the MRV costs, and--so that we could have more of that money 
not going back to a middle man, but going back to the producer.
    Mrs. Fletcher. All right. Thank you. I see my time has 
expired. I thank you, and I yield back.
    Chairwoman Johnson. Thank you. Mr. Casten.
    Mr. Casten. Thank you, Chair Johnson. Thank you so much to 
the panel for being here today. So I often say that climate 
change is the existential threat to our species, and the IPBES 
report makes it clear that our species is not particularly 
unique in the sense of that risk, other than the fact that we 
think we're unique. With 25 percent of the species at risk, I 
think we delude ourselves if we think we are not a part of that 
ecosystem and impacted by it.
    Dr. Brauman, I think you said that a 2 degree temperature 
rise, about 5 percent of the species are at risk, if I was 
noting that down? Or is that Dr. Watson? OK. I realize this is 
imprecise, but can I extrapolate from that that about 20 
percent of the species loss you see is attributable to climate 
change, or is that too sloppy an estimate?
    Dr. Watson. I think that problem is all of these drivers, 
whether it's land use change, pollution, over-exploitation they 
all interact with each other, and so climate change is one of 
the threats. It changes species composition, populations. It 
threatens extinction. It moves the boundaries. So we know that 
climate change, while it has not been the biggest driver in 
most systems today, is an increasing driver, so this is why we 
argue that you have to look at both climate change and loss of 
biodiversity together----
    Mr. Casten. Yes.
    Dr. Watson [continuing]. And recognize what are the 
policies, practices, and technologies that can be win/win for 
both biodiversity and climate--and not win/lose, because there 
are some tradeoffs.
    Mr. Casten. Well, hear hear on that. Let me sort of try to 
ask the question from a different direction. On the select 
Committee on Climate Crisis, we had a panel 2 weeks ago, and I 
asked them, if we eliminated all CO<INF>2</INF> tomorrow, how 
much sea level rise is baked in, and the answer was 2 feet. If 
we eliminated all CO<INF>2</INF> emissions tomorrow, how much 
species loss is baked in?
    Dr. Watson. To be honest, I can't give you an answer, but 
we'll try and find an answer for you and submit it to the 
record. I'll talk to some of the people that will have done 
some----
    Mr. Casten. OK.
    Dr. Watson [continuing]. Type of modeling.
    Mr. Casten. OK. And I'm all for the win/win, and I agree 
that that's a lot easier, but I want us to be realistic about 
what we're looking at here going forward, and the consequences.
    Mr. Goodwin, I really appreciate all your testimony on 
agriculture. I come from the energy industry, and I think, in 
some ways, the energy industry is easy to decarbonize. I think 
agriculture is much harder, and I appreciate the good work 
you're doing to get that done. Can you help me understand, 
what's the range of reasonable carbon reductions we can expect 
from agriculture? You know, if you look at arable acres of 
land, or whatever the unit, how many tons per acre can we 
realistically expect to reduce if we implement all the best 
practices you've got in mind?
    Mr. Goodwin. Well, I think we start with one farm at a 
time. I think a lot of times we take this global look, and try 
to solve the problem globally, when these issues are going to 
be solved locally. So we start at one farm at a time. And so 
the key here is to stop making farms on ranches, or employing 
these practices that provide a source and turning them into a 
sink, right?
    Mr. Casten. So I totally agree with that. I ask the 
question because, as we think about what type of research 
programs we're going to fund, what types of measures, I'm 
trying to understand, as my old head of engineering used to 
say, is it bigger than a breadbox, or is it smaller than a 
breadbox? What is the potential--and I don't know, Dr. Brauman, 
if you want to comment on this, because I know you talked about 
some of this research with perennial crops, how much carbon 
potential are we talking about that we could sequester in the 
ag sector? I think we know that number for other sectors. I'm 
not seeing a really good estimate for what that is in the ag 
sector.
    Dr. Brauman. I think there has been some work done on this, 
and I don't have that number on me, but I will certainly find 
it and submit it for the----
    Mr. Casten. OK.
    Dr. Brauman [continuing]. Record. What we do know is that 
nature is really the only sink for carbon. A lot of that is in 
the ocean. Some of it's biochemical processes, but it's also 
about ocean algae, and then what we do on the landscape, which 
is, you know, growing trees and growing roots, is really the 
only other place that carbon goes. So in terms of research, and 
the need to better quantify those numbers, and also find ways 
to improve them, is critical.
    Mr. Casten. OK. So I've heard, and I don't know if this is 
true, I've heard estimates around one to two tons per hectare, 
but I don't know that that number includes reduced fertilizer 
inputs, where there's so much CO<INF>2</INF>, which brings me 
back to Mr. Goodwin. When you look at farms that have taken 
this one farm at a time approach, presumably they've got fewer 
inputs, they're getting maybe another, you know, another crop 
per season out of the land, what is the economic value to that 
farmer? Is this purely charitable, or does the farmer save 
money from reduced inputs or higher yields as they go through 
these practices?
    Mr. Goodwin. Certainly they have increased economic 
opportunities to decrease the input. A penny saved is a penny 
earned, right? So if we're not applying those inputs, we've 
saving money. We've got examples of producers that we work with 
that are out-yielding their current county cohorts, and their 
county averages, with limited-to-reduced fertility, and 
providing sequestered carbon. And that one to two ton number is 
not out of the question. Certainly not out of the question for 
a majority of the farms in the United States.
    Mr. Casten. Well, I see I'm over my time, but I'm delighted 
that you ended with that, and I swear I didn't set this up. We 
started and ended with a win/win. Let's stay focused on it. 
Thank you. I yield back.
    Chairwoman Johnson. Thank you very much. Ms. Hill.
    Ms. Hill. Thank you, Madam Chair. I was just reading a UC 
Santa Barbara Study last week that quantifies the effects of 
political lobbying on the likelihood of climate policy 
enactment. It finds that $700 million in total lobbying by 
corporations around the Waxman-Markey Bill reduced the bill's 
chances by 13 percentage points, from 55 percent to 42 percent, 
representing $60 billion in expected climate damages due to the 
lowered chance of enacting U.S. climate policy. The money isn't 
the only cost, of course. Human health and wellbeing are also 
heavy costs, such as loss of life, and destruction through 
natural disasters like wildfires.
    Last year we saw a number of shocking fires in my home 
State of California. Two days after election day last November, 
the Woolsey fire ignited and burned in Los Angeles and Ventura 
Counties. It destroyed 1,643 structures, killed 3 people, and 
prompted the evacuation of more than 295,000 people. Throughout 
California, communities remain devastated and are trying to 
rebuild today. There's no question that one of the key 
biodiversity drivers, climate change, is enabling more intense 
wildfires in the west. While a certain measure of wildfire is 
``good'' for wild areas, so long as people and property can 
remain safe, in California we're seeing regions staying so dry 
for so long that it's clear that they are not bouncing back.
    Dr. Watson and Dr. Brauman, can you talk a little bit about 
the relationship between biodiversity and wildfires, and how a 
changing climate can impact that relationship?
    Dr. Brauman. The interaction between biodiversity and 
wildfires is incredibly complex, and part of the reason is 
because many of the responses take place over long, but varying 
timescales. And so the heterogeneity in landscapes that fires 
produce is great for biodiversity in the long term. We see 
forest stands, and also grasslands of different ages, with 
different species. There are many species, especially in 
California, that actually only regenerate with fire. They need 
the heat in order for the seedlings to grow.
    We also see, in the short term, that there's often 
devastating effects to biodiversity, both in terms of the 
vegetation, but also the animals who are either killed or 
displaced, and that it can take a very long time for some of 
that to come back. And one of the reasons that connectivity, 
thinking about infrastructure, and really thinking about all of 
these drivers together, is important is that if those animals, 
if pollen, and seeds, and seedlings have somewhere to go, then 
the impacts are much less. But if there's only one forest, and 
it's hemmed in in certain ways, then there's not, and so the 
impacts can be much greater.
    And the other thing that we see is that, with the dryness, 
and with decreased and--fires, and therefore higher fire 
intensity, that the impacts are bigger, the impacts are longer, 
and it's not just on biodiversity, but that's when we start to 
see really nasty flooding, really bad for water sources, all 
kind of problems. And so, you know, understanding--putting the 
time and money in to understand these complex systems and 
manage them better is critical.
    Ms. Hill. Dr. Watson, do you have anything to add?
    Dr. Watson. Not so much on the wildfires, but your first 
point about vested interests, one thing that we pointed out in 
our report, and IPCC (Intergovernmental Panel on Climate 
Change) points out in their's, is that effective actions to 
have the sort of transformational changes that we need, both to 
limit climate change and to save biodiversity, there will be 
some key vested interests that will fight against removing some 
of these perverse subsidies, against payment for ecosystem 
services. And so we have to recognize also the power 
asymmetries between different lobby groups. So your first point 
is a really crucial one that we brought up in our document, 
that we need to deal with power symmetries, we need to deal 
with vested interests, and get everybody on board to see that, 
in the long term, it's in everybody's best interest to deal 
with climate change, and to deal with a loss of biodiversity.
    Ms. Hill. Absolutely. Should we be addressing wildfires 
differently than the past given your comments about 
biodiversity, and how, you know, it's important--in terms of 
burn areas are important? And also what types--you mentioned 
the research, that we need to put in the money to understand 
this, but what types of research are needed, and how do we need 
to be thinking about funding it?
    Dr. Brauman. So there's been a really great evolution in 
fire management as we have learned more. It's been very 
responsive to how we understand this, and I am confident that 
we will continue to evolve our management strategies as we 
learn more, and so, yes, there will need to be changes. 
Certainly smaller controlled burns--actually, very similar to 
the kind of grassland controlled burns that Mr. Goodwin was 
talking about, are very likely to be important.
    Understanding some of the more subtle processes that 
happen, so things related to soil processes, water, as well as 
the really kind of big species and big trees issues I think are 
going to be something that's quite important to understand, 
especially as these ecosystems regenerate, and we want them to 
keep delivering the services that are important for us.
    Ms. Hill. Thank you so much. I yield back.
    Chairwoman Johnson. Thank you very much. Dr. Foster.
    Mr. Foster. Thank you, Chairwoman Johnson, and Ranking 
Member Lucas, and all of our panelists for joining us. I'd like 
to bring up, I guess for not the first time here, the issue of 
Asian carp, which is very local to my issue. You know, Asian 
carp have already wreaked environmental havoc up and down the 
Mississippi River watershed, and it's currently threatening the 
Great Lakes, and every river connected to them. The last line 
of defense, actually, is in my district, near the Brandon Road 
Lock and Dam near Joliet, Illinois. The U.S. Army Corps of 
Engineers has finalized and approved a proposal of about $778 
million which calls for measures such as an engineered channel 
with an acoustic air bubble curtain and an electric barrier. 
There's currently a temporary electric barrier in place, which 
is the best we have.
    But not only is this barrier designed to prevent the 
catastrophic introduction of Asian carp into the Great Lakes, 
but it's also intended to continue to allow for commercial 
navigation, which is why it is complicated. And it's now up to 
Congress to authorize funding for the Army Corps to go ahead 
with this plan, and, you know, in fact, the WRDA (Water 
Resources Development Act) bill that supports this funding is 
coming up for a vote this week in the U.S. Congress, and I hope 
that my Republican and Democratic colleagues come together to 
vote for the WRDA bill to prevent this catastrophe.
    I guess you're already on the record as saying Asian carp 
are highly destructive. So one of my questions is sort of the 
longer-term research, and dealing with invasive species. There 
are ideas out there like gene drives, like the release of 
sterilized males, which, you know, have been successful in some 
species. What is your take on that? Are these technologies just 
ultimately too dangerous to pursue? Are they things that we 
have to pursue because of the problem with invasive species?
    Dr. Brauman. So I'm lucky enough to live further up the 
Mississippi, where we actually closed one of the locks and dams 
to keep the invasive carp out. What's clear is that addressing 
issues of invasive species, once they've already arrived, is 
always going to be expensive and painful, so the very first 
thing we need to be paying attention to is managing better to 
make sure that the invasions and the introductions don't happen 
in the first place.
    Mr. Foster. Right. Or we could just send--in the case of 
Asian carp, just send the bill for all of this to Arkansas, 
which, in their wisdom, introduced this into ponds that 
flooded.
    Dr. Brauman. In terms of the specifics of the right way to 
address this, there's a lot of them, and I'm not familiar with 
the specifics of those, except to say that these kinds of 
responses are always going to be riskier than simply not 
introducing these species in the first place. There are a wide 
range of different kinds of responses. Asian carp are not 
considered invasive in Asia, and in part because people like to 
eat them. So, as we change public perceptions, there's all 
kinds of possibilities out there. But I, again, would really 
reinforce that being more strategic about making sure that we 
don't have these kinds of invasions is going to be important.
    Mr. Foster. Yes. Dr. Watson?
    Dr. Watson. Just in mind a comment I'm not at all an expert 
on Asian carp, but the next assessment, one of the next big 
IPBES reports will be on invasive alien species. There will be 
a whole assessment which will come out in about 2, 2-1/2 years 
specifically looking at the whole issue of alien invasive 
species.
    Mr. Foster. And I hope you also look at countermeasures, 
and research into countermeasures----
    Dr. Watson. Yes.
    Mr. Foster [continuing]. Because these things are obviously 
double-edged swords, but----
    Dr. Watson. Yes.
    Mr. Foster [continuing]. You know, potentially great and 
very dangerous. I'd also like to bring up the long-term future 
of land use for farming. You know, I'm not sure I'm completely 
on board with the narrative that, you know, there's this ever 
increasing demand for food and crop land. You know, the 
population's projected to hit the peak around I think 2070, or 
sometime like that, and decrease afterwards. Yields on crops 
like corn have been doubling every 20 years, so that, you know, 
if you'd only need a certain amount of crop, that will cut by a 
factor of two the amount of land you need. There are 
technologies like artificial meat, where, you know, in 
principle these Impossible Whoppers that are now going to be 
nationwide at the end of this year, use up I think about one-
sixteenth the land per hamburger. And so, you know, it may be 
that actually, you know, the need for land dedicated to farming 
will actually peak even earlier than the population, and start 
declining. I was just wondering if you have, you know, is there 
anyone who does those sort of projections, and looks at the 
economic impacts of that?
    Dr. Brauman. There are projections along these lines in the 
IPBES report. We actually looked at a number of scenarios, and 
some of those involve sustainable futures that include a 
combination of on-the-ground technologies, as well as reduction 
in per capita consumption. And so, yes, you're absolutely 
right, there's lots of potential for not needing to expand 
farmland as we both change our diets, and also as we increase 
yields in places where there's lots of opportunity for 
increasing yields.
    Mr. Foster. Yes. And, like I say, I haven't even mentioned, 
you know, these factory farms, in the sense of, you know, 
growing crops under grow lights, where you can get six crops a 
year, and don't have the shipping cost to the cities. And it'd 
be nice to have a forward look at what agriculture looks like 
100 years from now so we know what technologies to invest in. 
And I think I'm over time, and I yield back.
    Chairwoman Johnson. Thank you, Dr. Foster. Mr. Beyer.
    Mr. Beyer. Madam Chair, and Ranking Member Lucas, thank you 
very much. This is fascinating, especially in light of the UN's 
report on the accelerated loss of biodiversity. I am very 
grateful and impressed by the very clear, direct drivers which 
showed up in a couple of your reports, that changes in land and 
sea use, direct exploitation of organisms, climate change, 
pollution, and invasion of alien species. And it's very clear 
that we're destroying the core of our livelihood--food, health, 
and economy--and that we're in grave danger.
    As a Member of Congress, I'm always struggling for what is 
it that we can do, what are our direct pieces. Let me quote the 
wonderful physicist, David Park, who said, ``physics is as much 
a creative mind as it is a body of knowledge. It is the 
imperative, simplify.'' To sort of simplify, let me lay out 
four things. First, on carbon, we know, and I think this 
Congress will grapple with carbon pricing, some way to make 
carbon much more expensive, and stimulate everything else, 
including changes in our behavior. And there are some really 
good bills. Jerry McNerney, who was up here, has the lead on 
one of the ones on carbon sequestration. And, once again, there 
are dozens of experiments around the world right now on taking 
carbon out of the air, out of the water, out of smokestacks.
    I was proud to introduce the Wildlife Corridors 
Conservation Act last week, with Senator Udall and Congressman 
Vern Buchanan, to ensure it's really to incentivize State and 
local governments to create corridors so that native wildlife, 
including fish, animals, plants, butterflies, continue to 
migrate, adapt, thrive in the face of increasing threats, just 
to give these species a fighting chance, and it's a critical 
step forward.
    So those are a couple of concrete things, and, by the way, 
I'd like to ask for unanimous consent to submit a statement 
from the Wildlands Network on habitat connectivity, without 
objection. But Dr.----
    Chairwoman Johnson. Without objection, so ordered.
    Mr. Beyer. Thank you. Dr. Watson, Dr. E.O. Wilson, who 
shows up at some of these, in reacting to Dr. Monfort's notion 
that we're going to build 15 million new miles of roads by 
2050, has talked about half Earth. In fact, his last book is 
that we should devote half of the terrestrial planet to half 
Earth. What do you think, and what's the way forward? How do 
we, as Members of Congress, begin to make that happen?
    Dr. Watson. Yes. We didn't address that directly. We did 
talk about protected areas. To me, the half Earth concept, I 
think we'd have to define what you mean by it. People live all 
over the world today, so the question is how do you integrate 
people into a protected area? What we did say is that while 
we've got a lot of protected areas, much of the key 
biodiversity is not inside our protected areas. Second, many of 
the protected areas are not well managed, and third, none of 
the protected area designs take into account climate change as 
species move, and as boundaries of ecosystems move.
    What we pointed out was, yes, we should focus on protected 
areas, with appropriate design and corridors, but we also have 
to recognize that much of biodiversity will always lie outside 
of protected areas, and therefore we have to integrate 
biodiversity concerns into agriculture, timber, transportation, 
forestry, et cetera. So it's a combination of how do we do 
multi-sectoral planning, recognize you don't only think about 
the economics of a project, or a technology, you think about 
the implications for biodiversity. So, yes, I think it makes 
sense to expand the protected areas, both marine and 
terrestrial, but at the same time, I don't think that you can 
rely on protected areas alone to really do the job.
    Mr. Beyer. OK. Great. Thank you very much.
    Dr. Monfort. May I make a comment on that?
    Mr. Beyer. Yes, please, Dr. Monfort.
    Dr. Monfort. Well, first of all, this is the Science 
Committee, so I'd like to make a plug for science, and the 
Smithsonian is a knowledge institution. And I would point out 
that we know very little about biodiversity, and how much there 
is that exists, and how it's distributed in space and time, and 
we're discovering new species all the time--the Natural History 
Museum, every year they discover between 3 to 400 new species 
every year. There are thousands of species sitting, waiting to 
be identified, for example, so we know that there's great 
diversity, but we need to know more.
    We don't even know where organisms move. Most organisms 
that we're trying to save, or we're talking about with 
biodiversity, we don't even know where they go throughout their 
life cycle. So we need fundamental knowledge----
    Mr. Beyer. OK.
    Dr. Monfort [continuing]. To be able to make good 
decisions.
    Mr. Beyer. All right. Thank you very much. Dr. Brauman, I 
noticed that you had the Ph.D. in interdisciplinary program and 
environment and resources. And picking up what Dr. Monfort said 
about 200,000 years to get to 1 billion people, and 200 more to 
get to 8 billion, there's incredibly little conversation on 
Capitol Hill about population, whether it peaks out at 2070 or 
not. How do we begin to have a responsible conversation on what 
the carrying capacity of the planet is, especially as it 
relates not just to water, not just to land, but to 
biodiversity?
    Dr. Brauman. What's critical about the idea of carrying 
capacity is the question of what does per capita consumption 
look like? And, with animals that we study, it's not so hard to 
figure out how much they need to eat, but with people, it turns 
out that you don't actually drink very much water every day, 
and yet the amount of water that people need is bigger than 
that, and varies widely around the world. And so it's almost 
impossible to have a conversation about carrying capacity 
without talking about consumption and per capital consumption.
    Mr. Beyer. All right. Thank you very much. Madam Chair, I 
yield back.
    Chairwoman Johnson. Thank you very much. Ms. Wexton.
    Ms. Wexton. Thank you, Madam Chair, and thank you to the 
members of the panel for coming out today. I have really 
enjoyed your testimony, and, although I'm a little bit fearful 
and frightened about our future, I also feel some optimism 
about our prospects.
    Dr. Monfort, you'll have to excuse me, because I do have to 
take a moment to engage in a little bit of fangirl action for 
the National Zoo, and the Conservation Biology Institute. I 
represent northern Virginia here in Congress, and I am also the 
mother of 2 kids who are now 14 and 16 years old, but both of 
them attended zoo camps. We have spent literally thousands of 
hours, I think, at the National Zoo in one way or another, and 
we always look forward to that Saturday in fall when we could 
go to Front Royal and check out the Conservation Biology 
Institute. What you guys have done with the breeding programs 
for the scimitar horned oryx and the Przewalski's wild horses 
is amazing. Although I know you're limited by the genetic stock 
that you have, what you have managed to do with those 
populations is incredible.
    But I would also note that, while the brush-tailed bettong 
are very adorable, I would be remiss if I didn't use my 
opportunity to be speaking with you to express my 
disappointment that the Smithsonian no longer--and the National 
Zoo no longer houses or breeds the black-and-rufous giant 
elephant shrew. Those were always a fan favorite, and they 
certainly were mine, but I thank you for everything that you 
have done, and for your testimony here today.
    Dr. Porter, I want to thank you for your passion. It was 
clear in your presentation how passionately you feel about 
this, and I was really glad to hear it, because I have a 
brother who was a non-commissioned officer in the NOAA Corps, 
so I was glad to see that you participate in some of those NOAA 
research voyages, and my siblings and I area all SCUBA divers. 
I think my first checkout dive was about 28 or 29 years ago, 
and just in that period of time, what I have seen, in terms of 
the degradation, and the damage to the Caribbean corals, is 
really frightening and disappointing to me, because I want to 
be able to take my kids on SCUBA diving trips someday and show 
them the beauty of the undersea world, and those reefs, and I'm 
not sure they're going to be there.
    So you spoke a lot about the increase in temperature as 
being the biggest threat, and that----
    Dr. Porter. Yes.
    Ms. Wexton [continuing]. Clearly that's the case, but can 
you speak a little bit about ocean acidification? Because 
that's something this Committee is working on at this time, and 
may be able to hopefully have some good results. I think Ms. 
Bonamici is back, and she has taken the lead on that. So if you 
can speak a little bit about acidification, and the impacts 
that that has as well?
    Dr. Porter. Thank you. CO<INF>2</INF> has two impacts on 
the ocean. One is to serve as a blanket to raise its 
temperature, the other is to dissolve into the ocean and 
acidify it, because CO<INF>2</INF> causes water to be acidic. 
And I focused on CO<INF>2</INF>'s problem with temperature 
because that's the first one that's going to get coral reefs, 
but the second one is exactly what you said, ocean 
acidification.
    We have a technical term for these two problems in coral 
reef ecology. They're called the evil twins, and we're worried 
about both researches going on, thank you for understanding 
that, and further research on ocean acidification, which is 
done by all these agencies, is extremely important. Thank you.
    Ms. Wexton. Thank you. Now, my district starts just outside 
of Washington, D.C., but it does go out pretty far west, into 
some pretty rural agricultural communities. And I recently met 
with some farmers in my district, some of whom are starting to 
implement no till and cover crops to improve their soil quality 
and soil health. Many of them were also doing this for the 
first time, so that tells me that there is a new understanding 
of the need for this, and a desire among agricultural producers 
to do it. But we don't talk about soil health really just--writ 
large the same way that we talk about clean air or clean water, 
but it's just as important, in my mind.
    So, in general, Mr. Goodwin, do you think soil carbon 
health has gotten the right amount of attention in the past, 
and, if not, what can we do to increase the attention on it?
    Mr. Goodwin. I don't. I certainly think any time we can 
talk about ecology, and any time we can talk about how carbon 
works in a system--most people hear CO<INF>2</INF>, they're 
afraid of it, but carbon is the actual driver in most 
ecological systems. That's what plants feed on. And so we have 
to do a better job of telling our story, most certainly, 
because those producers that are making those changes, they 
have to believe in it, and when they do believe in it, it takes 
about 3 years to change practices. To change that practice, I 
mean, we're talking about changing equipment, everything. And 
so, once that has been made, in my 20 years of working with 
producers on the ground, I have yet to meet one producer that's 
made this significant change, has been successful, and then has 
gone back to conventional ways.
    Ms. Wexton. Thank you very much. And so it's an issue of 
convincing them that it's best for them, and for best 
practices, but then also maybe providing some incentives to 
make it possible for them to make that transition? Is that 
correct?
    Mr. Goodwin. Yes, ma'am.
    Ms. Wexton. OK. Thank you very much. I see my time has 
expired, so I'll yield back.
    Chairwoman Johnson. Thank you very much. Ms. Bonamici.
    Ms. Bonamici. Thank you very much, Chairwoman Johnson, and 
Ranking Member Lucas. I'm happy to be able to join you from the 
Education Committee. The findings of the IPBES Global 
Assessment are stark. We know that the health of our ecosystems 
is rapidly deteriorating, and we don't want to get to the point 
where the consequences will be irreversible. And I'm glad that 
the report recognizes the multi-coordinated approach to this, 
and all the drivers of biodiversity loss. I see it as, you 
know, not only the need to reduce pollution control, invasive 
species, address the climate crisis, sustainably use our land 
and water, protect natural habitats--really going to take all 
of that together.
    Dr. Watson, you recently told National Geographic that your 
biggest personal concern is the state of the oceans. As to co-
chair of the House Oceans Caucus, I wanted to call attention to 
this statement as we recognize National Ocean Month, and 
Capitol Hill Ocean Week. Our oceans are often left out of the 
equation when we're responding to the climate crisis, but 
they're home to most of the life on the planet, and our 
response to the biodiversity crisis has to put our oceans at 
the forefront of the solution.
    So in your testimony you mentioned that climate change is 
projected to become as important, or more important, than other 
drivers of biodiversity loss in the coming decades. Oceans are 
absorbing more than 90 percent of excess heat trapped in the 
atmosphere from greenhouse gas emissions, and, of course, 
causing harmful algal blooms, which produce acid that's harmful 
to shellfish, like our Oregon Dungeness crab, also may be 
poisonous to humans, as we know. And as halves decompose, they 
create the hypoxic dead zones, where marine life cannot 
survive. So last Congress we authorized the Harmful Algal 
Blooms and Hypoxia Research and Control Act, but hypoxia and 
harmful algal blooms are often conflated at the Federal level, 
so I'm working on legislation to address these issues 
separately. So is there a need or opportunity for dedicated 
Federal funding for hypoxia mitigation strategies to protect 
marine species, and what should Congress be doing to support 
those efforts?
    Dr. Watson. The answer's basically yes to your question, 
the reason I say that the oceans are a concern, although, I'm 
concerned about all ecosystems. The concern about the oceans at 
the moment is we probably spend less attention on the oceans. 
The plastics in the oceans, we've got to stop it. Most of the 
plastic is coming from Southeast Asia and the big rivers in 
Southeast Asia, so we have to worry about the plastics and 
ocean acidification and the overfishing throughout many parts 
of the world. The U.S. actually is probably one of the better 
countries in the world in managing fisheries, but in most parts 
of the world we're fishing further from shore, deeper into the 
ocean, smaller and smaller fish, so we have a problem of 
overexploitation.
    Coral reefs, as you've already heard from Dr. Porter, are 
unbelievably sensitive, not only to climate change, 
temperature, and ocean acidification at 1.5+ C, and we're 
already at one to 1.1, maybe 10 to 30 percent of corals could 
survive. At 2+ C, probably only 1 percent of corals could 
survive. And, to be honest, a projection that I made, and 
actually been supported by much better studies than mine, is 
we're on a pathway to 3 to 3-1/2 or 4+ C. The Paris agreement, 
which wants us to limit it to 2+ C, and even more, 1.5, we're 
not on a pathway to 1.5 or 2. We're on a pathway of 3 to 4.
    Ms. Bonamici. I'm going to try to get another question in 
to follow up on what you mentioned about plastics. Every minute 
the equivalent of a garbage truck full of plastic is dumped 
into the oceans, according to the UN. It's astounding, eight 
million tons a year. So I want to talk a little bit about 
microplastics, and I think this was brought up earlier, but to 
follow up, we're finding pieces of microplastic in marine life, 
blocking digestive tracts, altering growth, and in some cases 
killing animals and marine organisms. We don't know how long it 
takes for plastic to completely biodegrade. The estimates are, 
like, 450 years to never. I thank the Committee for getting rid 
of the plastic bottles. We have cups, we have reusable water 
bottles, it's a step.
    But you're talking about many of the priorities of the 
bipartisan Oceans Caucus with the fishing and plastics. But I'm 
working with Senators Whitehouse and Sullivan, and 
Representative Young, the Oceans Caucus co-chair, on Save Our 
Seas 2.0 Act to take further steps to address marine debris. 
You're right, a lot of it comes from other places, but it is a 
global problem. The assessment found that marine plastic 
pollution has increased tenfold since 1980, affecting at least 
267 species, 86 percent of marine turtles, and 44 percent of 
sea birds, and 43 percent of marine mammals. So what do we 
currently know about the effects of microplastics on our 
ecosystem, and what research do we need in the future? Looks 
like Dr. Porter wants to answer----
    Dr. Porter. Yes.
    Ms. Bonamici [continuing]. That one.
    Dr. Porter. We know very little, which is unfortunate, but 
we do know that the microplastic particles, after there has 
been some degradation, are, in fact, more dangerous than the 
large particles that draw everyone's attention.
    Ms. Bonamici. Right.
    Dr. Porter. As I mentioned earlier, it is estimated that by 
2050 there will be more plastic in the ocean than fish. I thank 
you for your service on the Oceans Committee.
    Ms. Bonamici. Well, thank you. And I see my time has 
expired. I yield back. Thank you.
    Chairwoman Johnson. Thank you very much. That's the end of 
our witnesses, but before we close this hearing I want to thank 
all of our witnesses for testifying today. You're a superb 
group.
    The record will remain open for 2 weeks for additional 
statements from Members, or any additional questions the 
Committee may ask the witnesses. Our witnesses are now excused, 
and our Committee is adjourned.
    [Whereupon, at 12:30 p.m., the Committee was adjourned.]

                               Appendix I

                              ----------                              


                   Answers to Post-Hearing Questions



                   Answers to Post-Hearing Questions
Responses by Dr. James Porter

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                              Appendix II

                              ----------                              


                   Additional Material for the Record




      Statements submitted by Representative Eddie Bernice Johnson
      
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]      




         Statement submitted by Representative Lizzie Fletcher
         
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]         


            Statement submitted by Representative Don Beyer
            
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]            


                                 <all>
</pre></body></html>
